Audit Report




OIG-13-010
Audit of the Community Development Financial Institutions
Fund’s Fiscal Years 2012 and 2011 Financial Statements


November 13, 2012




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                            ACCESSIBILITY NOTICE


The attachment to our report, the Community Development Financial Institutions Fund
(CDFI) Agency Financial Report (AFR) FY 2012, does not conform to the requirements
  of Section 508 of the Rehabilitation Act; it also includes Financial Statements and
  schedules within the Notes to the financial statements (in the Financial Statements
 and Notes section on pages 55-76) that do not meet the Web Content Accessibility
    Guidelines (2.0) that call for using table markup to present tabular information1.

               To obtain a Section 508 compliant copy of CDFI’s FY 2012 AFR,
                                        contact CDFI


                                                      Also see:

                   Web Accessibility and Section 508 Compliance policy page




1
  The objective of this technique is to present tabular information in a way that preserves relationships within the
information even when users cannot see the table or the presentation format is changed. Information is considered tabular
when logical relationships among text, numbers, images, or other data exist in two dimensions (vertical and horizontal).
These relationships are represented in columns and rows, and the columns and rows must be recognizable in order for the
logical relationships to be perceived.

Using the table element with the child elements tags (tr, th, and td) makes these relationships perceivable. Techniques
such as inserting tabs to create columns or using the pre element are purely visual, and visually implied logical
relationships are lost if the user cannot see the table or the visual presentation is changed.
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF                                November 13, 2012
INSPECTOR GENERAL




            MEMORANDUM FOR DONNA J. GAMBRELL, DIRECTOR
                           COMMUNITY DEVELOPMENT FINANCIAL
                           INSTITUTIONS FUND

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Community Development Financial Institutions
                                    Fund’s Fiscal Years 2012 and 2011 Financial Statements


            I am pleased to transmit the attached audited Community Development Financial
            Institutions Fund (CDFI) financial statements for fiscal years 2012 and 2011.
            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of CDFI’s
            statements of financial position as of September 30, 2012 and 2011 and the
            related statements of operations and changes in net position and cash flows for the
            years then ended. The contract required that the audit be performed in accordance
            with generally accepted government auditing standards; applicable provisions of
            Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements, as amended; and the GAO/PCIE Financial Audit
            Manual.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Control Over Financial Reporting;
                    and
                •   Independent Auditors’ Report on Compliance and Other Matters

            In its audit, KPMG LLP found:

                •   the financial statements were fairly presented, in all material respects, in
                    conformity with U.S. generally accepted accounting principles;
                •   no deficiencies in internal control over financial reporting that are considered
                    material weaknesses; and
                •   no instances of reportable noncompliance with laws and regulations tested.

            KPMG LLP also issued a management letter dated November 12, 2012, discussing
            a matter involving internal control that was identified during the audit but was not
            required to be included in the auditors’ reports. This letter will be transmitted
            separately.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on CDFI’s financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. KPMG
LLP is responsible for the attached auditors’ reports dated November 12, 2012,
and the conclusions expressed in the reports. However, our review disclosed no
instances where KPMG LLP did not comply, in all material respects, with generally
accepted government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audits, at
(202) 927-5591.

Attachment
Community Development Financial Institutions Fund
     United States Department of the Treasury


             Agency Financial Report
                     FY 2012
                                                             Table of Contents




Message from the Director ............................................................................................................................... 3
Community Development Financial Institutions Fund Overview .................................................................... 5
Program Discussion and Analysis .............................................................................................................. 15
  Community Development Financial Institutions Program................................................................... 16
  Native Initiatives ....................................................................................................................................... 21
  Capacity Building Initiative ..................................................................................................................... 23
  New Markets Tax Credit Program ......................................................................................................... 25
  Bank Enterprise Award Program ........................................................................................................... 31
  Financial Education and Counseling Pilot Program ............................................................................. 33
  Capital Magnet Fund................................................................................................................................ 34
  CDFI Bond Guarantee Program ............................................................................................................. 34
Financial Management Status of Financial Management ........................................................................ 35
Independent Auditors’ Report .................................................................................................................... 46
Financial Statements and Notes................................................................................................................... 54
Notes to the Financial Statements ............................................................................................................... 58
Appendix A: Glossary of Acronyms………………………………………………………………………...78




                                                                                                                                                             2
Message from the Director
Fiscal year (FY) 2012 was an overall success on many levels, but it also marked the year in which the
Community Development Financial Institutions Fund (CDFI Fund) made its largest single announcement of
award dollars and award recipients.

On August 6, 2012, the CDFI Fund announced the FY 2012 monetary awards for two of its most successful
programs: the Community Development Financial Institutions Program (CDFI Program) and the Native
American CDFI Assistance Program (NACA Program). The awards totaled more than $186 million — $175
million for the CDFI Program (including $23 million in awards through the Healthy Food Financing
Initiative) and nearly $11.5 million for NACA Program — and were made to 210 organizations serving
low-income and Native communities across the country.

Indeed, the CDFI Fund has established new records for the amount awarded through the CDFI Program in
each of the past three years ($104.8 million in FY 2010, $167.3 million in FY 2011, and $175.3 million in
FY 2012). We have now awarded more than $1.2 billion through the CDFI Program since our organization
was created in 1994.

There were a number of other important accomplishments at the CDFI Fund in FY 2012.

In February 2012, we selected 70 Community Development Entities to receive allocations of New Markets
Tax Credit authority, totaling $3.6 billion, through the calendar year (CY) 2011 round of the New Markets
Tax Credit Program (NMTC Program). The CDFI Fund has now awarded $33 billion in tax credit authority
through nine rounds of the program.

The demand for our Bank Enterprise Award Program, which provides awards to Federal Deposit Insurance
Corporation (FDIC)-insured banks and thrifts that increase their investments in CDFIs, community
development lending, investments, and service-related activities, also remains strong. The CDFI Fund
announced the 2011 BEA awardees during the first quarter of FY 2012. Seventy seven (77) FDIC-insured
institutions were selected to receive approximately $22 million in FY 2011 BEA Program awards. For the
FY 2012 funding round of the program, we received 71 applications requesting more than $88.5 million in
awards.

We also made significant progress toward launching the new CDFI Bond Guarantee Program, a potential
new source of long-term capital for loans in low-income communities. The CDFI Fund is the administrator
for the program, and so far we have: hired full-time staff to design and implement the program; engaged in
numerous public appearances and meetings regarding the program; developed a financial model for subsidy
rate calculations required for issuing guarantees under the program; developed policies and a program
structure that is responsive to the industry, the Office of Management and Budget (OMB), and the
authorizing statute; and drafted regulations that will soon be published. As of the publication of this Report,
we are developing program documents, application forms, compliance instruments, legal agreements, and
program standard operating procedures.

Finally, we have taken a number of steps to expand our Capacity Building Initiative, which provides
training and technical assistance to help CDFIs develop their ability to deliver financial products and
services to underserved communities. In the past year, we presented the first training sessions of a two-year
program designed to build the capacity of established Native CDFIs. We also launched two other training
programs to help CDFIs that specialize in microfinance and small business lending meet the growing
demand for loans.
                                                                                                             3
Also, as part of the Capacity Building Initiative, we created resource banks on the CDFI Fund’s website that
make materials used in some of the most popular training programs available to the general public and
members of the community development industry. And we published an in-depth report that examines the
state of the CDFI industry and its performance through the recent recession, as well as a major study of the
lack of access to healthy and affordable food financing in our nation’s low-income communities.

FY 2012 has been another very productive year for the CDFI Fund, and I am pleased to present this edition
of our Agency Financial Report. As this document clearly demonstrates, the CDFI Fund has continued to
succeed in its mission to generate economic opportunity in communities where such opportunity is needed
most.

I would like to thank the entire staff of the CDFI Fund for their exceptional dedication and hard work
throughout FY 2012. I am confident that we will strive to reach even greater heights in FY 2013.


Donna J. Gambrell




Director
Community Development Financial Institutions Fund




                                                                                                            4
Community Development Financial Institutions Fund Overview

Overview
In 1994, the Community Development Financial Institutions Fund (CDFI Fund) was created for the purpose of
promoting economic and community development through investment in and assistance to Community Development
Financial Institutions (CDFIs). Since 1996, the CDFI Fund has administered the Community Development Financial
Institutions Program (CDFI Program) and the Bank Enterprise Award Program (BEA Program) to help build the
capacity of CDFIs, increase investment in CDFIs, and increase community development lending, investments, and
service-related activities in distressed communities, respectively. The CDFI Fund’s role in promoting community and
economic development was expanded in FY 2001 when the Secretary of the Treasury delegated to the CDFI Fund the
responsibility of administering the New Markets Tax Credit Program (NMTC Program). The breadth and depth of the
CDFI Fund’s reach was further expanded in FY 2008, with the enactment of legislation that created the Financial
Education and Counseling Pilot Program (FEC Pilot Program) and the enactment of legislation that created the Capital
Magnet Fund (CMF), both of which were implemented in FY 2010; and again in FY 2010 with the enactment of
legislation that created the CDFI Bond Guarantee Program for which the CDFI Fund began implementation planning
in FY 2011.

Since its creation in 1994, the CDFI Fund has awarded more than $1.7 billion to CDFIs, community development
organizations, and financial institutions through the CDFI Program, the BEA Program, and the Native Initiatives,
which includes the Native American CDFI Assistance Program (NACA Program). In addition, the CDFI Fund has
allocated $33 billion in tax credit authority to Community Development Entities (CDEs) through the NMTC Program.

Authorizing Legislation
The CDFI Fund was established as a bipartisan initiative under the Riegle Community Development and Regulatory
Improvement Act of 1994, which authorized the CDFI and BEA programs. The NMTC Program was authorized
through the Community Renewal Tax Relief Act of 2000. The FEC Pilot Program and the CMF were authorized
through the Housing and Economic Recovery Act of 2008. The CDFI Bond Guarantee Program was authorized as
part of the Small Business Jobs Act of 2010.

CDFI Fund’s Vision and Mission
The CDFI Fund’s vision is to economically empower America’s underserved and distressed communities. Its mission
is to increase economic opportunity and promote community development investments for underserved populations
and in distressed communities in the United States. The CDFI Fund achieves its purpose by promoting access to
capital and local economic growth through the following programs:

       Community Development Financial Institutions Program, which provides Financial Assistance awards to
       institutions that are certified as CDFIs, and Technical Assistance grants to certified CDFIs and entities that
       will become certified as CDFIs within three years;

       Native Initiatives, which assists entities in overcoming barriers that prevent access to credit, capital, and
       financial services in Native American, Alaskan Native, and Native Hawaiian communities (Native
       communities). The Native Initiatives’ central component is the Native American CDFI Assistance Program
       (NACA Program), which increases the number and capacity of existing or new CDFIs serving Native
       Communities. In addition, the Native Initiatives provide training to help strengthen and develop Native
       CDFIs;




                                                                                                                        5
        New Markets Tax Credit Program, which provides tax credit allocation authority to certified Community
        Development Entities (CDEs), enabling investors to claim tax credits against their federal income taxes. The
        CDEs in turn use the capital raised to make investments in low-income communities;

        Bank Enterprise Award Program, which provides monetary awards to FDIC-insured banks for increasing
        their levels of loans, investments, services, and technical assistance within Distressed Communities, and
        financial assistance to CDFIs through grants, stock purchases, loans, deposits, and other forms of financial and
        technical assistance, during a specified period;

        Capital Magnet Fund, which provided grants for CDFIs and other non-profits to finance the development,
        rehabilitation, and purchase of affordable housing for low-income people;

        Financial Education and Counseling Pilot Program, which provided financial assistance awards to enable
        certified CDFIs and other eligible organizations to deliver a variety of financial education and counseling
        services to prospective homebuyers; and

        CDFI Bond Guarantee Program, which will provide a federal guarantee for bonds issued by Qualified Issuers
        on behalf of CDFIs for economic and community development purposes.

What is a CDFI?
CDFIs are specialized, community-based financial institutions that serve low-income people and organizations in
economically distressed communities, often working in market niches that may be underserved by traditional financial
institutions. Only financial institutions certified by the CDFI Fund can receive Financial Assistance awards through
the CDFI Program and the NACA Program. Technical Assistance awards are available through both programs to
certified CDFIs and entities that propose to become certified CDFIs.

CDFIs provide a unique and wide range of financial products and services that help their customers build wealth and
achieve the goal of participating in the ownership society. While the types of products made available are generally
similar to those provided by mainstream financial institutions (such as mortgage financing for low-income and first-
time homebuyers, small business lending, and lending for community facilities), CDFIs often lend to and make equity
investments in markets that may not be served by mainstream financial institutions. In addition, CDFIs may offer rates
and terms that are more flexible to low-income borrowers. CDFIs also provide services that help ensure that credit is
used effectively, such as technical assistance to small businesses, and home buying and credit counseling to
consumers. CDFIs include depository institutions, such as community development banks and credit unions, and non-
depository institutions, such as loan funds and venture capital funds.

CDFI Customers
CDFIs serve a wide range of customers, including:

    •   Small business owners who provide employment opportunities and needed services to disadvantaged
        communities;

    •   Affordable housing developers who construct and rehabilitate homes in low-income communities;

    •   Community facilities used to provide child care, health care, education, and social services in underserved
        communities;

    •   Commercial real estate developers who finance the acquisition, construction, or rehabilitation of retail, office,
        industrial, and community facility space in low-income communities; and


                                                                                                                            6
    •   Individuals who are provided affordable banking services including checking and savings accounts,
        alternatives to predatory financial companies, and mortgages and other kinds of loans.

Certification of Community Development Financial Institutions and Community
Development Entities
CDFI certification is a designation conferred by the CDFI Fund. An organization must be a legal entity and meet the
following six statutory and regulatory criteria:

        1) Have a primary mission of promoting community development;

        2) Serve principally an investment area or targeted population;

        3) Be an insured depository institution, or make loans or development investments as its predominant
           business activity;

        4) Provide development services (such as technical assistance or counseling) in conjunction with its
           financing activity;

        5) Maintain accountability to its target market; and

        6) Be a non-governmental entity and not be controlled by any governmental entities.

CDFI certification is a requirement for accessing Financial Assistance and Technical Assistance awards from the CDFI
Fund through the CDFI Program and the NACA Program, and certain benefits through the BEA Program. In addition,
organizations pursue CDFI certification in order to leverage CDFI funding from non-Federal sources such as banks,
foundations, state and local governments.

The certification of organizations as CDFIs has been a long-standing activity of the CDFI Fund. During FY 2012, 56
CDFIs were newly certified and 20 CDFIs lost their status as CDFIs due mostly to mergers, acquisitions, and business
failure. As of September 30, 2012, there were 999 certified CDFIs. This compares to 963 CDFIs that were certified as
of the end of FY 2011. CDFIs are headquartered in all 50 states, the District of Columbia, Guam, Puerto Rico, and the
U.S. Virgin Islands.

A Community Development Entity (CDE) is a domestic corporation or partnership that is an intermediary vehicle for
the provision of loans, investments, or financial counseling in low-income communities through the NMTC Program.
To be certified as a CDE, organizations must demonstrate a primary mission of serving low-income communities and
low-income people, and must demonstrate that they are accountable (through representation on a governing board or
advisory board) to residents of low-income communities. CDEs are certified as such by the CDFI Fund and are
eligible to apply for allocations of tax credit authority through the NMTC Program.

Many CDEs create multiple subsidiary CDEs to own specific assets or classes of assets; as a result, 580 new CDEs
were certified in the year ending September 30, 2012. Benefits of CDE certification include being able to: (1) apply to
the CDFI Fund to receive an allocation of NMTC authority to offer to investors in exchange for equity investments in
the CDE and/or its subsidiaries; or (2) receive loans or investments from other CDEs that have received a NMTC
allocation. CDEs must be certified in order to receive allocations of tax credit authority. As of September 30, 2012,
5,878 CDEs were certified. This compares to 5,298 CDEs that were certified as of the end of FY 2011. CDEs are
headquartered in 49 states, the District of Columbia, Puerto Rico, and the U.S. Virgin Islands.




                                                                                                                      7
Breakdown of Types of Certified CDFIs
There are four main types of CDFIs, and each provides a different mix of products geared to reach specific customers:

    •   Community development banks, thrifts and bank holding companies are regulated for-profit corporations
        that provide capital to rebuild economically distressed communities through targeted lending and investment;

    •   Community development credit unions are regulated non-profit cooperatives owned by members that promote
        ownership of assets and savings and provide affordable credit and retail financial services to low-income
        people;

    •   Community development loan funds (usually non-profits) provide financing and development services to
        businesses, organizations and individuals in low-income urban and rural areas and can be further categorized
        based on the type of client served: micro-enterprise, small business, housing, and community service
        organizations; and

    •   Community development venture capital funds include both for-profit and non-profit organizations that
        provide equity and debt-with-equity features for businesses in distressed communities.




                                                                                                                       8
                          CDFI Fund’s Key Performance Results for FY2012
The CDFI Fund’s key performance results for FY 2012 are provided below with CDFI Fund-wide summary
performance results in the top panel, and selected program-level results in the bottom panel. Please note that this
information summarizes awardees performance results for program year 2011. These performance measures were
newly adopted in FY 2012 so there was little baseline information for projecting targets. The FY 2011 baseline data
was adjusted downward to project for a decline in lagged American Recovery and Reinvestment Act of 2009-related
impacts; hence some measures over or under shot the targets. Additional trend information and revised projection
methods should improve the formulation of future targets. It should also be noted that the lag in performance reporting
are based on information reported by CDFI Program awardees and reflects the time it takes awardees to deploy funds
and make investments for which actual and projected results can be estimated.

The CDFI Program awardees and NMTC Program allocatees helped provide funds for projects that created or
maintained 57,023 jobs. In addition, , the CDFI Program awardees and NMTC Program allocatees helped finance
4,680 businesses, and real estate loans financed 27,433 affordable housing units, including 22,445 rental units and
4,988 owner units.

In FY 2012, the Community Development Financial Institutions (CDFI) Fund’s core program (the CDFI Program)
awardees reported originating 17,547 loans or investments totaling nearly $1.3 billion, based on their portfolio of
activities in 2011.

The New Markets Tax Credit (NMTC) Program, which provides tax credit allocation authority to Community
Development Entities (CDEs) for targeted investments in LICs, reported allocatees making $5.5 billion of loans and
investments in Qualified Active Low-Income Community Businesses, with 70.6 percent of the dollars invested in
loans and investments in severely distressed communities.


             CDFI Fund’s Key Performance Measures for FY2012                         2011     2012
                                                                                                             2012 Results
               (Based on Program Activities Reported in 2011)                       Baseline Targets

    CDFI FUND-WIDE SUMMARY RESULTS:
    All Affordable Housing Units Financed                                             19,083      16,419              27,433
     Rental Units                                                                                                     22,445
     Owner Units                                                                                                       4,988

    All Businesses Financed 1                                                           5,729      5,104               4,680

    All Jobs at End of Reporting Period                                               55,274      43,335              57,023

    PROGRAM-LEVEL RESULTS:
    CDFI Program: Lending and Investing Activity:
     Amount of Total Loans/Investments Originated ($millions)                         $1,228      $1,188              $1,298
     Number of Total Loans/Investments Originated                                     16,313      16,000              17,547

    NMTC Program: Lending and Investing Activity:
    Total Qualified Low-Income Community Investments ($million)                       $4,700      $4,000              $5,518
    Percent of NMTC Program Loans/Investments in Severely Distressed                  72.4%       70.4%               70.6%
    Communities 2

1
 This number reflects netting out businesses that received more than one loan.
2
 “Severely distressed” communities include Census tracts with poverty rates above 30 percent; or median family incomes below
60 percent of the metropolitan or state median; or unemployment rates greater than 1.5 times the national average.

                                                                                                                               9
Compliance Monitoring and Evaluation
The CDFI Fund is committed to a vision for compliance management which is informed not only by the results of
CDFI Fund Program reporting requirements, but also by risk analysis that highlights to the CDFI Fund awardees and
allocatees whose financial wherewithal requires special attention from the Fund’s compliance management staff.

In FY 2012, the CDFI Fund took several important steps in order to ensure that its compliance management function
will be a robust effort that includes the following:

       review compliance reports from awardees and allocatees on a timely basis, and actively pursue instances of
        late reporting or failure to report on the part of awardees and allocatees;
       analyze compliance reports for accuracy and data integrity, identifying cases of non-compliance with
        assistance and allocation agreements on a timely basis;
       pursue quick corrective actions in response to such instances of non-compliance, including rendering findings
        of agreement default and appropriate sanctions when warranted; and
       identify existing awardees and allocatees whose overall financial health presents a significant risk for
        continued investment of public funds and pursues appropriate actions in response to findings.

The full level of compliance management required has been hampered in recent years by insufficient resources in both
staffing and technology. In FY 2012, the CDFI Fund took significant actions to increase resources in both areas. As
noted elsewhere in this document, the CDFI Fund plans to award a contract for an Awards Management Information
System (AMIS) in early FY 2013 and complete deployment in early FY 2015. AMIS will replace legacy business
systems used by the CDFI Fund for its business processes. For compliance management, AMIS will electronically
perform compliance testing for Performance Goals and Measures required by assistance and allocation agreements and
provide reports of exceptions on a timely basis both to CDFI Fund compliance staff and to awardees and allocatees.

When AMIS is fully implemented, electronic compliance testing will enable CDFI Fund compliance staff to perform
more thorough compliance analysis, through desk reviews of awardee financial and programmatic data and on-site
reviews of awardee accomplishments. At the same time, the CDFI Fund is in the process of increasing its
full-time staff by five full-time employees, an increase of nearly 50 percent over FY 2011 staffing levels.

The table below summarizes key steps initiated by the CDFI Fund in FY 2012 to strengthen its compliance
management function including, but not limited to, the expansion of staff and technology resources described above.

Progress Toward Strengthening Compliance Management

    Close out at least 1,000 older monetary awards for which
    compliance requirements had been satisfied and award terms were       Completed
    concluded with no assistance agreement defaults.
    Develop detailed plan for deployment of existing and expanded
    staff resources to address compliance management and associated       Completed
    post-award processes.
    Increase compliance management resources by five full-time staff      In progress; on track
    positions.                                                            for completion in 1st
                                                                          Quarter FY 2013
    Engage a third-party resource to perform a thorough process           In progress; on track
    review of the CDFI Fund’s compliance function and develop a           for completion in FY
    risk-based approach to compliance management.                         2013

                                                                                                                      10
Develop a detailed inventory of all outstanding compliance report
                                                                          Completed
reviews.

Develop and implement monthly internal reporting that provides
data on compliance reports outstanding, reports pending review,
                                                                          Completed
reports reviewed and found compliant, reports reviewed and
determined to be non-compliant, and awards in default.
Develop performance baseline for percent of awardees in default
relative to their assistance agreements.                                  Completed

Develop an initial schedule for compliance-based desk reviews
and/or site visits for awardees and allocatees. The first of these site
                                                                          Completed
visits occurred prior to the end of FY 2012, with a continuation of
same during FY 2013 and beyond.
Implement electronic compliance testing through Awards                    In progress; on track
Management Information System in tandem with a risk-based                 for implementation
approach to compliance management.                                        from early FY 2013
                                                                          through early FY 2015




                                                                                                  11
Allocation of CDFI Fund Funding

The CDFI Fund’s appropriations comprise program funds and administrative funds. Program funds are used for
program awards (such as grants, loans, deposits, equity investments, and capacity building / training contracts);
administrative funds used to cover the costs to administer all programs, including the NMTC Program. As NMTCs are
not monetary awards, they are not reflected in the chart below. NMTC Program administrative expenses are included
in the administration costs below.

In FY 2012, the CDFI Fund allocated $221.0 million in appropriated funds as follows:

                              Funding Allocation
                             (Amounts in Millions)

                                             FY 2012          FY 2011
      Amounts Funded
          CDFI Program                           $168.00         $169.70
          BEA Program                               18.0            21.9
          Native Initiatives                        12.0              12
          Capital Magnet Fund                        0.0             0.0
          CDFI Bond Guarantee Program                0.0             0.0
          NMTC Program & Administrative
         Costs                                      23.0             22.9
      Total Amounts Funded                        221.00            226.5
      Less Amounts Not Obligated                     31.7            35.5
      Total Funding Used                         $189.3           $191.0


1

In FY 2011, the CDFI Fund carried over $35.5 million which included $7.0 million from the CDFI Program, $0.6 million from the
NACA Program, $21.9 million for the BEA Program, and $6.0 million for Program Administration.
In FY 2012, the CDFI Fund carried over $31.7 million which included $7.4 million from the CDFI Program (this includes
unobligated balances from HFFI and the Subsidies for Direct Loans), $18.0 million from the BEA Program, $0.1 million from the
NACA Program, and $6.2 million for Program Administration.




                                                                                                                          12
                                         Percent of Amounts Funded in FY 2012




                                                                   Administrative Costs,
                                Native Initiatives, 5.4%                 10.4%


                      BEA Program, 8.2%


                                                                           CDFI Program, 76.0%




Sources of Funding
Congress appropriates funding annually to the CDFI Fund; each appropriation can be used over two fiscal years.
Appropriations include fiscal year budget authority, and any unobligated funds from the prior year may be carried
over. The annual appropriation amount includes borrowing authority to make loans.


                     Sources of CDFI Fund Funding
                                (Amounts in Millions)


                                                             FY 2012       FY 2011

Appropriations                                                $221.0         $226.5
Prior Year Amounts Deobligated,
     Used to Fund Current Year Obligations                        2.5           0.8
Carryover from Prior Year                                        35.5         104.1
Spending Authority from Offsetting Collections                    0.0           0.3
No-Year Funds                                                     4.0           4.0
Borrowing Authority Used                                          4.2           1.8
Total Sources of Funds                                        $267.2         $337.5

Note – The above amounts do not include credit subsidy re-estimates.




                                                                                                                    13
Organization of the CDFI Fund

The CDFI Fund’s organizational structure consists of the following: Director; Deputy Director; Legislative and
External Affairs Manager; Legal Counsel; Chief Financial Officer; CDFI and Native Programs Manager; Operations
Manager; NMTC and BEA Programs Manager; Certification, Compliance Monitoring, and Evaluation Manager;
Financial Strategies and Research Manager; Training and Outreach Manager; Chief Information Officer; Capital
Magnet Fund Manager; and CDFI Bond Guarantee Program Manager. The organization chart of the CDFI Fund is
shown below.


                          Community Development Financial Institutions Fund
                                        Organizational Chart
                                          September 2012




                                                                                                             14
Program Discussion
and Analysis




                     15
Community Development Financial Institutions Program
Through the Community Development Financial Institutions Program (CDFI Program), the CDFI Fund uses federal
resources to invest in and build the capacity of CDFIs to serve low-income people and communities lacking adequate
access to affordable financial products and services. The CDFI Program provides monetary awards for Financial
Assistance (FA) and Technical Assistance (TA). CDFIs use FA awards to further goals such as:

    •   Economic development (job creation, business development, and commercial real estate development);

    •   Affordable housing (housing development and homeownership); and

    •   Community development financial services (provision of basic banking services and financial literacy training to
        underserved communities).

In FY 2012, the CDFI Program announced awards totaling $175.3 million to CDFIs - $152.2 million in CDFI Fund
Program awards and $23.1 million in HFFI awards. The CDFI Program used $8.0 million of the FY 2011 funds and
$165.1 million of the FY 2012 funds for $173.1 million in FY 2012 awards. 3 The total FY 2012 funding of $168.0
million was allocated as follows: $141.0 million for the CDFI Program awards, $22.0 million for the HFFI awards
and $5.0 million for the Capacity Building Initiative contracts. In FY 2012, the CDFI Program awarded $4.4 million
for the Capacity Building Initiative contracts; the remainder of $0.6 million was carried over into FY 2013.

Financial Assistance

The CDFI Program consists of two components, FA awards and TA awards. The FA component is by far the most
subscribed and consists of two categories: Category 1 – Small and Emerging CDFI Assistance (SECA); and Category 2
– Core. Through the CDFI Program, the CDFI Fund invests in CDFIs that provide financing and related services to
communities and populations lacking access to credit, capital, and financial services.

Applicants to the CDFI Program must demonstrate they have the financial and managerial capacity to impact the
communities they serve. Applicants must: 1) be able to provide affordable and appropriate financial products and
services; 2) be a viable financial institution; 3) be able to use CDFI Program awards effectively; and 4) have the
ability to leverage their awards with non-Federal funding.

The CDFI Program makes FA awards in the form of equity investments, loans, deposits, and grants, and the CDFI is
required to match its FA award dollar-for-dollar with non-Federal funds of the same type as the award itself. This
requirement enables CDFIs to leverage private capital to meet the demand for affordable financial products and
services, including loans, investments, training, technical assistance, and basic financial services such as checking or
savings accounts, in economically distressed communities.

FY 2012 FA Awards

In FY 2012, the CDFI Fund received applications from 273 organizations, requesting a total of more than $367.6 million
in FA awards, including 75 SECA applicants requesting $40.8 million and 198 Core applicants seeking $326.8 million.

The CDFI Fund awarded a total of $149.2 million to 144 organizations in FY 2012, including 36 SECA awards totaling
$17.0 million and 108 Core awards totaling $132.2 million.




3
  Final FY 2012 awards were $2.2 million less than announced due to lower obligations actually incurred under the terms of the
final award agreements.
                                                                                                                             16
                                       Table 1 – FY 2012 FA Awards
                                              Awards                   Amount Awarded
         Core                                          108                         $132,235,566
         SECA                                           36                            $ 16,996,000

         Totals                                        144                           $ 149,231,566


The following graph shows the total amount of FA funds requested and awarded since FY 2005. The CDFI Program has
consistently received more applications than it can fund. In FY 2012, the CDFI Fund capped awards at $1.5 million in an
attempt to meet the heavy demand. By capping award amounts, the CDFI Fund was able to make more awards.




*In February 2009, the CDFI Program received $90 million in funds through the American Recovery and Reinvestment Act
(ARRA) to enhance the lending capacity of CDFIs.




                                                                                                                     17
Healthy Food Financing Initiative
In FY 2011, the CDFI Fund launched the new Healthy Food Financing Initiative (HFFI) in coordination with efforts
being undertaken by the U.S. Department of Agriculture (USDA) and the Department of Health and Human Services
(HHS), and provided FA awards through the CDFI Program to support the initiative. The HFFI represents the Federal
government’s first coordinated step to eliminate “food deserts” – low-income urban and rural areas in the United
States with limited access to affordable and nutritious food – by promoting a wide range of interventions that expand
the supply of and demand for nutritious foods, including increasing the distribution of agricultural products;
developing and equipping grocery stores; and strengthening producer-to-consumer relationships. In addition, the
HFFI is part of a larger effort to create quality jobs and promote comprehensive community development strategies to
revitalize distressed neighborhoods into healthy and vibrant communities of opportunity. FA awards made through
the HFFI can be used to make loans and investments and to provide development services that promote and increase
access to healthy food options in low-income communities.

In FY 2012, the CDFI Fund announced more than $23 million in FA awards through the CDFI Program to 12
organizations to finance healthy food activities. These CDFIs will use the funds to enhance their capacity to make
investments in a range of healthy food projects serving food deserts, including grocery stores, mobile food retailers,
farmers markets, cooperatives, corner stores, bodegas, and stores that sell other food and non-food items along with a
full range of healthy foods. The 12 awardees were located in 10 states: Colorado, Illinois (two awards), Kentucky,
Louisiana, Massachusetts, New York (two awards), Ohio, Pennsylvania, Texas, and Virginia.

Technical Assistance
Through the Technical Assistance (TA) component of the CDFI Program, the CDFI Fund provides grants to build the
capacity of both start-up and existing CDFIs. TA grant funds can be used for items such as staff salaries, benefits,
staff training, professional services, supplies, and equipment. Applicants often request funds to analyze their target
markets, develop lending policies and procedures, or to build staff lending capacity. There is no matching
requirement for applicants seeking TA.

More established CDFIs also use TA grants to build their capacity to provide new products, serve current target
markets in new ways, or enhance the efficiency of their operations with upgraded computer hardware and software.

FY 2012 TA Awards
In FY 2012, the CDFI Fund received 116 applications requesting a total of more than $11.1 million in TA-only grants.
Thirty-three organizations received awards totaling $3.0 million. The following graph shows the total amount of TA
awards since 2003.




                                                                                                                       18
CDFI Program Performance
CDFI Program awardees report their annual performance to the CDFI Fund through the CDFI Fund’s Web-based
reporting system, the Community Investment Impact System (CIIS). Each awardee has 180 days from its fiscal year end
to report through CIIS. This time allows the awardee to complete its annual audit and enables the CDFI Fund to verify
reported information against the audit.

The FY 2012 performance information provided here pertains to each awardee’s performance results for program year
2011. It should also be noted that the lag in performance reporting reflects the time it takes to deploy funds and make
investments for which actual and projected results can be estimated. The delay in performance reporting reflects the
length of time from notice of award to award disbursement, the time it takes for an awardee to deploy the funds, and the
additional time it takes to compute and report awardee impact information to the CDFI Fund’s CIIS reporting system.
The FY 2012 performance results reported in the table below reflect program outcomes and activities for 2011 and are
based on information entered into CIIS by reporting CDFI Program awardees.

In FY 2012, CDFI awardees reported originating 17,547 loans or investments totaling nearly $1.3 billion, based on
their portfolio of activities in 2011. This includes $197.8 million for 4,379 home improvement and purchase loans,
$363.1 million for 6,345 business and microenterprise loans, and $318.5 million for 503 residential real estate
transactions. These data on the amount and number of loans or investments originated provide baselines for
benchmarking and targeting program performance in the forthcoming fiscal year. CDFI Program awardees helped
provide funds for projects that created or maintained 25,618 jobs. In addition, real estate loans financed 24,466
affordable housing units, including 21,193 rental units and 3,273 owner units. CDFIs also provided financial products
and services to unbanked and underserved individuals by maintaining 3,216 Individual Development Accounts
totaling $3.2 million in savings. CDFIs reported providing financial literacy counseling and other training
opportunities to 233,100 individuals. Finally, loans and investments originated by CDFIs over the last three years
were located in more than 21 percent of eligible census tracts.


                                                                                                                       19
                             Annual Performance of CDFI Program Awardees for FY2012
                                  (Based on Program Activities Reported in 2011)

Lending and Investing Activity
Amount of Total Loans/Investments Originated                                          $1,298,058,191
Number of Total Loans/Investments Originated                                                  17,547

         Business and Microenterprise Originations                                      $363,082,649
         Number of Originations                                                                6,345

         Consumer Originations 4                                                          $39,152,252
         Number of Originations                                                                 5,216

         Home Improvement and Home Purchase Originations                                $197,793,730
         Number of Originations                                                                4,379

         Residential Real Estate Originations                                           $318,562,704
         Number of Originations                                                                  503

         Commercial Real Estate Originations                                            $202,965,931
         Number of Originations                                                                  262

         All Other Originations                                                         $176,500,925
         Number of Originations                                                                  842

Jobs at End of Reporting Period                                                                 25,618

Affordable Housing Units Financed                                                               24,466
       Rental Units                                                                             21,193
       Owner Units                                                                               3,273

Businesses Financed 5                                                                            4,102

Percent of Eligible Areas Served6                                                               21.2%

Financial Access and Literacy
Open Individual Development Accounts                                                            3,216
Dollars Saved in Individual Development Accounts                                           $3,191,074
Individuals Served By Financial Literacy or Other Training                                    233,100




4
  Due to changes in reporting requirements during FY2012, not all institutions reported consumer loan originations for this year.
The actual value of consumer originations is likely to be higher.
5
  This number reflects netting out businesses that received more than one loan.
6
  Defined as the percentage of all eligible Census tracts receiving at least one origination in the past three calendar years.
                                                                                                                                20
Native Initiatives
The Native Initiatives program was created to increase opportunities for Native American, Alaska Native and Native
Hawaiian communities (Native Communities) to access credit, capital, and financial services by creating or expanding
CDFIs primarily serving those communities. The Native Initiatives has two main components: the Native American
CDFI Assistance Program (NACA Program), and specialized training opportunities available under the CDFI Fund’s
Capacity Building Initiative.
The program was established after the CDFI Fund published the “Native American Lending Study” in November
2001, which evaluated access to credit, capital, and financial services in Native Communities. The Study affirmed the
importance of developing Native CDFIs to play a key role in the broader effort to lead Native Communities into the
nation’s economic mainstream. Congress subsequently specified that the CDFI Fund use certain amounts of its annual
appropriations to facilitate the development of Native CDFIs.
A Native CDFI is a CDFI that is created to primarily serve the needs of Native Communities. As of June 2012, there
were 72 certified Native CDFIs in 19 states.

Native CDFIs focus, largely, on two different financial sectors: 1) affordable housing (housing development and
homeownership); and 2) economic development (job creation, business development, and commercial real estate
development). Some Native CDFIs serve as national or regional intermediaries, providing financial products and
services to local Native CDFIs and other community development organizations.

NACA Program FY 2012

Through the Native American CDFI Assistance (NACA) Program, the CDFI Fund provides two types of funding: 1)
Financial Assistance (FA) awards which are only available to certified Native CDFIs; and 2) Technical Assistance
(TA) grants, which are available to certified Native CDFIs, Emerging Native CDFIs, and Sponsoring Entities.

FA awards are primarily used for financing capital. FA awards are made in the form of loans, grants, deposits, and
equity investments to support the certified Native CDFIs’ financing activities, and require the Native CDFI to match
the CDFI Fund's award dollar-for-dollar with funds from a non-Federal source. TA grants are generally used to
acquire products or services including computer technology, staff training, and professional services, such as market
analysis, and support for other general capacity-building activities. TA grants do not have a matching requirement.
NACA awardees use their awards to increase their capacity to serve their Target Market and/or to create/become
certified CDFIs.
The performance results reported by NACA Program awardees in FY 2012 show Native CDFIs originated 1,170
loans or investments totaling $21.7 million based on their portfolio of activities in 2011.

In FY 2012, the CDFI Fund received 66 NACA eligible applications requesting a total of $20.9 million for both FA and
TA funding. The CDFI Fund awarded 33 organizations a total of $11.4 million for both FA and TA funding in FY 2012.

FY 2012 NACA FA Awards
In FY 2012, the CDFI Fund awarded 15 organizations totaling approximately $9.0 million in FA. The FY 2012
NACA FA awardees include 12 loan funds, two credit unions, and one bank or thrift state-chartered institution. The
CDFI Fund capped the FA awards in FY 2012 at $750,000. As a result, the CDFI Fund was able to make more FA
awards. The CDFI Fund assumes that the demand will remain high as an increasing number of Native CDFIs put into
practice the CDFI Fund’s training and continue to build their lending programs.




                                                                                                                    21
Technical Assistance Grants

Through the NACA Program, the CDFI Fund provides TA grants, which are available to certified CDFIs, Emerging
Native CDFIs, and Sponsoring Entities. Unique to the NACA Program, Sponsoring Entities (typically a Tribe or
Tribal entity) create and support fledgling Native organizations as they move toward certification.

FY 2012 NACA TA Awards
In FY 2012, 18 organizations received TA awards totaling $2.4 million. Out of 18 organizations receiving a NACA
Program TA award, 16 were loan funds and two were credit unions. Below is a chart of the NACA TA use of funds
categories.
  `
      FY 2012 NACA Technical Assistance Uses of Funds Categories
  Category                                            Amount               Percent of Total
  Personnel (Salary)                                $1,406,395                 57.8%
  Personnel (Fringe Benefits)                        $357,087                  14.7%
  Training                                            $86,155                   3.6%
  Travel                                             $163,484                   6.7%
  Professional Services                              $229,825                   9.4%
  Materials/Supplies                                  $75,770                   3.1%
  Equipment & Other Capital Expenditures              $19,325                   0.8%
  Other Costs                                         $95,906                   3.9%
  Total                                             $2,433,947                  100%


Training Initiatives

Through the Native Initiatives, the CDFI Fund engaged a contractor to provide the resources for Native CDFI leaders
to identify and address critical challenges of their organization. Please see The Leadership Journey: Native CDFI
Growth and Excellence in the Capacity Building section for more information.




                                                                                                                 22
Capacity Building Initiative
The Capacity Building Initiative is the CDFI Fund’s primary means of developing and growing the nation’s CDFI
industry. Through the Capacity Building Initiative, both certified CDFIs and emerging CDFIs nationwide, are eligible
to access targeted training and technical assistance. Industry-wide training targets key issues currently affecting
CDFIs and the communities they serve, including affordable housing and business lending, portfolio management,
risk assessment, foreclosure prevention, general business operations, and liquidity and capitalization challenges.
Training is offered at locations where CDFIs work, and technical assistance is often provided on-site. Capacity
building plans are designed around the specific needs of participating CDFIs. All CDFIs are able to take advantage of
online resource banks hosted on the CDFI Fund website.

Specific training series launched or ongoing in FY 2012 include:

•The Foreclosure Solutions series, provided by NeighborWorks® America. This series helps CDFIs build their
capacity to operate highly-effective foreclosure intervention programs. The series offers training, technical assistance,
and access to tools and resources. Through this series, participants are improving their understanding of foreclosure
intervention strategies and effectively implementing these strategies in their communities. Since inception, 44
participants attended the Foreclosure Solutions training events and two CDFIs received technical assistance.

•The Portfolio Management series, provided by NeighborWorks®America. This series helps CDFIs improve the
capacity to manage their portfolios, including assessing and reducing portfolio risk. Participants are learning
techniques and strategies through a combination of training, technical assistance, organizational assessments and an
online resource bank. Since inception, 173 participants attended the Portfolio Management training events, 358
participated in webinars, and 118 CDFIs received technical assistance.

•The CDFI Capitalization series, provided by NeighborWorks®America. This series helps CDFIs learn strategies
and techniques for increasing their capitalization and improving their liquidity. Participants have access to training,
technical assistance, organizational assessments, and an online resource bank. Since inception, 189 participants
attended the CDFI Capitalization training events, 363 participated in webinars, and 104 CDFIs received technical
assistance.

•The Financing Healthy Food Options series, provided by Opportunity Finance Network. This series supports CDFIs
engaged in the eradication of food deserts in their target markets. Training, technical assistance, research and
specialized resources are available to participants. Since inception, 195 participants attended the Financing Healthy
Food Options training events, 548 participated in webinars, and 30 CDFIs received technical assistance.

•The Leadership Journey: Native CDFI Growth and Excellence series, provided by NeighborWorks® America. This
series supports the continued growth and long-term sustainability of experienced Native CDFIs by providing the
forum, tools, and resources for Native CDFI leaders to identify and address the critical challenges of their
organizations. Since inception, 29 participants attended a place-based training in Albuquerque, NM, 28 participants
attended a NeighborWorks Training Institute in New Orleans, LA, and 33 participated in two webinars. Currently, 15
cohort organizations are receiving technical assistance and leaders from 14 cohort organizations are receiving
executive coaching.

•The Innovations in Small Business Lending series, provided by Deloitte Financial Advisory Services LLP. The series
will support business-oriented CDFIs that are experienced in providing loans and services to small and medium-sized
enterprises. Participants will have access to training and customized technical assistance designed to increase services
to small businesses and explore new market opportunities. The first training is scheduled to take place in November
2012.

•The Scaling Up Microfinance series, provided by Opportunity Finance Network. The series will expand the capacity
of CDFIs that specialize in microfinance through an advanced training and technical assistance program focused on


                                                                                                                       23
decreasing costs, building human capital, and improving business models in order to attract investments. The first
training is scheduled to take place in October 2012.

•The Strengthening Small and Emerging CDFI series, provided by Opportunity Finance Network. The series will
expand the capacity of small and emerging CDFIs through a comprehensive training and technical assistance
program. The first training is scheduled to take place in January 2013.




                                                                                                                     24
New Markets Tax Credit Program
The New Markets Tax Credit Program (NMTC Program) stimulates capital investment in low-income communities
nationwide. The program permits taxpayers to receive a credit against federal income taxes for making Qualified
Equity Investments (QEIs) in designated Community Development Entities (CDEs). Substantially all of the
qualified equity investment proceeds must in turn be used by the CDE to provide investments in low-income
communities.

The CDFI Fund is responsible for awarding tax credit allocation authority to CDEs. It does so through a
competitive award process. This process ensures that the most qualified organizations receive first consideration
for this limited resource.

The tax credit provided to the investor totals 39 percent of the amount of the investment made in a CDE and is
claimed over a seven-year credit allowance period. In each of the first three years, the investor receives a credit
equal to five percent of the total amount paid for the stock or capital interest at the time of purchase. For the final
four years, the value of the credit is six percent annually. Investors may not redeem their investments prior to the
conclusion of the seven-year period.

The NMTC Program was authorized under the Community Renewal Tax Relief Act of 2000. The statute
included $15 billion in allocation authority for seven years. Since the NMTC Program was initially enacted, it
has been reauthorized three times; most recently, the Tax Relief, Unemployment Insurance Reauthorization and
Job Creation Act of 2010 extended the program through 2011. Additionally, the Hurricane Katrina Gulf
Opportunity (GO) Zone Act of 2005 authorized an additional $1 billion in allocation authority toward the
rebuilding and renewal of the GO Zone, and the American Recovery and Reinvestment Act (Recovery Act)
provided an additional $3 billion in allocation authority to assist in the economic recovery. Combined, Congress
authorized the CDFI Fund to award $33 billion in NMTC authority through FY 2011.

Additionally, the Tax Relief and Health Care Act of 2006 required that Treasury prescribe regulations to ensure
that non-metropolitan counties receive a proportional allocation of Qualified Equity Investments (QEIs). The
CDFI Fund’s process for ensuring proportional non-metropolitan investment is described in the NMTC Program
calendar year (CY) 2012 Notice of Allocation Availability (NOAA).




                                                                                                                    25
Results of the First Nine NMTC Allocation Rounds
NMTC allocations are awarded annually through a competitive process. CY 2002 was the first year in which
applications for NMTC authority were submitted to the CDFI Fund. To date, the CDFI Fund has completed nine
allocation rounds and has made 664 awards totaling $33 billion in allocation authority. This amount includes the
$3 billion of Recovery Act-authorized allocations ($1.5 billion through the 2008 NMTC allocation round and
$1.5 billion through the 2009 NMTC allocation round).


               Applications                               Allocations

                              Amount                              Amount
    Round        Number      (Billions)              Number      (Billions)

      1            345         $25.8                     66        $2.5
      2            271         $30.4                     63        $3.5
      3            208         $22.9                     41        $2.0
      4            254         $28.3                     63        $4.1
      5            258         $27.9                     61        $3.9
      6            239         $21.3                    102        $5.0
      7            249         $22.5                     99        $5.0
      8            250         $23.5                     99        $3.5
      9            314         $26.7                    70         $3.5*

    Totals       2,388        $229.3                    664        $33.0


Demand for NMTC allocation authority has been high since the program’s inception, as 2,388 applicants have
requested tax credits supporting a total of more than $229 billion in equity investments – approximately seven
times the amount of allocation authority available for awards by the CDFI Fund. Through the first nine
allocation rounds, only about 28 percent of applicants were selected to receive an award. The average tax credit
allocation award through the first nine rounds was approximately $49.7 million.

CY 2011 NMTC Allocation Round
In February 2012, the CDFI Fund announced that 70 applicants were awarded $3.6 * billion in the CY 2011
NMTC Allocation Round. The 70 applicants selected to receive awards are headquartered in 29 different states
and the District Columbia, and they anticipate making awards in 49 different states and the District of Columbia.

These 70 allocatees have committed to achieving results above and beyond minimal program requirements:

      •      All 70 allocatees indicated that 100 percent of their investment dollars would be made either in the form
             of equity, equity equivalent financing, or debt that is at least 50 percent below market and/or is
             characterized by at least five concessionary features. Such features include, among other things,

*
 The Tax Relief, Unemployment Insurance Reauthorization and Job Creation Act of 2010 provided $3.5 billion in allocation
authority for the CY 2011 Round. In addition to the $3.5 billion, the NMTC Program allocated $122.9 million of unused,
rescinded or surrendered allocation authority from prior rounds.

                                                                                                                     26
        subordinated debt, reduced origination fees, higher than standard loan-to-value ratios, lower than
        standard debt service coverage ratios, non-traditional collateral, and longer than standard amortization
        periods.

    •   All 70 allocatees committed to providing at least 75 percent of their investments to areas of higher
        economic distress (and/or areas targeted for development by other government programs) than are
        minimally required under the NMTC Program.

    •   NMTC Program regulations require that at least 85 percent of QEI dollars be invested into Qualified
        Low-Income Community Investments (QLICIs). All 70 of the allocatees indicated that they would invest
        at least 95 percent of QEI dollars into QLICIs. In real dollars, this means that at least $466 million above
        and beyond what is minimally required by the NMTC Program will be invested into low-income
        communities.

As detailed in the CY 2011 Notice of Allocation Authority (NOAA), the CDFI Fund sought to ensure that: (1) an
appropriate proportion of awards were provided to “Rural CDEs”; and (2) that at least 20 percent of all dollars
invested by allocatees under the CY 2011 allocation round are invested in non-metropolitan counties. With
respect to the first objective, nine allocatees, receiving allocations totaling $505 million, met the criteria for
“Rural CDE” designation. In total, 34 of the 70 allocatees are required to deploy some or all of their investments
in non-metropolitan counties. This ensures that approximately $708 million will be deployed in non-
metropolitan counties after removing costs for CDE administrative expenses.

CY 2012 NMTC Allocation Round

In CY 2012, the CDFI Fund began the application review process for the 2012 NMTC allocation round.
Applications for the CY 2012 NMTC allocation round were due on September 12, 2012. The CDFI Fund
received 282 applications for the 2012 NMTC allocation round, the third highest number of applications in the
history of the NMTC Program. The applications requested a total of $21.9 billion in NMTC allocation authority.

NMTC Evaluation Research
In 2007, the CDFI Fund engaged the Urban Institute to conduct a multi-year comprehensive evaluation of NMTC
Program outcomes. The research design for the evaluation includes: (1) a review of relevant economic
development, performance measurement, and tax credit literature; (2) informal discussions with key NMTC
stakeholders; (3) an analysis of existing NMTC administrative data; (4) development of a typology of NMTC
projects; (5) an examination of secondary public and private data; and (6) a random sample of case study data
collection through phone and online surveys with CDEs, community officials, NMTC investors, and
borrowers/investees. The Urban Institute has produced a series of reports for the CDFI Fund, detailing the
methodology for the primary surveys that took place in FY 2011. The Urban Institute contract expires on
September 30, 2012. The CDFI Fund is reviewing the final report which was submitted in October 2012.

The CDFI Fund’s Financial Strategies and Research office made important improvements to the CIIS data
reporting system in FY 2012 to improve the quality of data being reported by CDEs, including expanding the
data collected on fees associated with NMTC transactions.




                                                                                                                   27
NMTC Activities to Date
Allocation agreements were executed with each of the 664 allocatees from the first nine rounds. As of
September 30, 2012, allocatees had reported raising QEIs totaling more than $28.9 billion. This figure represents
almost 88 percent of the $33 billion in allocation authority issued to CDEs to date. In fiscal year 2012, over $5.0
billion in QEIs were raised.

Allocatees report QEI and QLICI activity to the CDFI Fund through the Allocation Tracking System (ATS) and
Community Investment Impact System (CIIS). Allocatees that have raised QEIs are required to report these
investments within 60 days via ATS. Within six months of the end of their fiscal year end, CDEs must complete
an annual Institution Level Report (ILR) via CIIS. Allocatees that have made QLICIs are also required to submit
an annual Transaction Level Report (TLR) in CIIS. An allocatee’s ILR, TLR, and audited financial statements
are due 180 days after the end of its fiscal year.

All results in the chart below represent the allocatees’ CIIS data reported for fiscal year 2012 (program year 2011).
As shown in the table below, for this program year allocatees reported making $5.5 billion of loans and investments
in Qualified Active Low Income Community Businesses (QALICBs), and a total of $26.4 billion of loans and
investments in QALICBs since the program’s inception. In FY 2012, allocatees reported that these funds will create
31,405 jobs and funded construction-related jobs totaling 52,448. In FY 2012, 53.3 percent of the dollars invested
were invested in “real estate QALICBs” (i.e., businesses that develop or lease real property for use by others). In
addition, 45.7 percent of the dollars were invested in “non-real estate QALICBs” (i.e., operating businesses) in low-
income communities, and the remaining one percent of investments were direct investments into other CDEs.
Allocatees reported providing $856,979 in financial counseling and other services to 8,323 businesses in low-income
communities. Adding together all QLICIs yields a grand total of $26.4 billion of cumulative investments was
reported in CIIS since 2003. The data reported in FY 2012 represents the allocatees’ 2011 activities.

                        Annual Performance of NMTC Program Allocatees for FY 2012
                               (Based on Program Activities Reported in 2011)

Lending and Investing Activity
Total Qualified Low-Income Community Investments (QLICI)                            $5,518,906,558
Number of QLICI                                                                              1,278

        Real Estate Activity (Investments in QALICB *)                              $2,943,303,798
        Number of QLICI                                                                        685

        Non-Real Estate Activity (Investments in QALICB)                            $2,524,022,844
        Number of QLICI                                                                        578

        Loans/Investments Made to Other
        Community Development Entities (CDEs)                                           $51,579,916
        Number of QLICI                                                                          15

Percent of Loans/Investments in Severely Distressed Communities †                             70.6%

Jobs at Reporting Period End                                                                  31,405


*
 Qualified Active Low-Income Community Businesses
†
 “Severely distressed” communities include Census tracts with poverty rates above 30 percent; or median family incomes
below 60 percent of the metropolitan or state median; or unemployment rates greater than 1.5 times the national average.

                                                                                                                       28
Projected Construction Jobs                  52,448

Affordable Housing Units Financed              2,967
       Rental Units                            1,252
       Owner Units                             1,715

Square Feet of Commercial Real Estate     18,629,898
       Manufacturing                       4,834,029
       Office                              7,653,933
       Retail                              6,141,936

Businesses Financed                             578

Financial Counseling and Other Services
Total Investments                          $856,979
Number of Businesses Served                   8,323




                                                       29
                             Cumulative Performance of NMTC Program Allocatees *
                              (Based on Program Activities Reported in 2003-2011)

Lending and Investing Activity
Total Qualified Low-Income Community Investments (QLICI)                              $26,436,582,401
Number of QLICI                                                                                 6,814

         Real Estate Activity (Investments in QALICB)                                 $15,452,128,443
         Number of QLICI                                                                        3,419

         Non-Real Estate Activity (Investments in QALICB)                             $10,337,013,471
         Number of QLICI                                                                        3,208

         Loans/Investments Made to Other
         Community Development Entities (CDEs)                                           $647,440,487
         Number of QLICI                                                                          187

Percent of Loans/Investments in Severely Distressed Communities                                  70.5%

Jobs at Reporting Period End                                                                   111,277

Projected Construction Jobs                                                                    247,555

Affordable Housing Units Financed                                                                 7,488
       Rental Units                                                                               3,477
       Owner Units                                                                                4,011

Square Feet of Commercial Real Estate                                                     109,305,592
       Manufacturing                                                                       17,147,937
       Office                                                                              49,446,383
       Retail                                                                              42,711,272

Businesses Financed †                                                                             1,781

Financial Counseling and Other Services
Total Investments                                                                         $33,053,365
Number of Businesses Served                                                                    34,295




*
  Numbers of Qualified Low-Income Community Investments (QLICI) refer to the number of transactions, not the number
of New Markets Tax Credit projects.
†
  The cumulative estimate of businesses financed nets out those businesses that have reported in multiple years as part of the
same project.

                                                                                                                           30
Bank Enterprise Award Program
The Bank Enterprise Award Program (BEA Program) recognizes the key role played by traditional financial
institutions in community development lending, investing, and service-related activities. Through the BEA
Program, the CDFI Fund provides monetary awards to regulated banks and thrifts for increasing their lending,
investments, and service-related activities in economically distressed communities (those with high poverty and
unemployment) and/or financial assistance to CDFIs through grants, stock purchases, loans, deposits, and other
forms of financial and technical assistance. The size of the award is a percentage of the increase in activities
from one annual reporting period to the next.

Providing monetary awards for reinvestment in distressed communities leverages the CDFI Fund’s dollars and puts
more capital to work in distressed communities throughout the nation. The BEA Program is highly targeted to areas
with larger populations. In general, approximately 14,000 Census Tracts qualify as distressed communities under the
program.

BEA Program awards are based on the increase in the amount of Qualified Activities from a Baseline Period to a
later Assessment Period (the corresponding time in the following year). Qualified Activities consist of financial
assistance provided to certified CDFIs, loans made by financial institutions in distressed communities (for example,
affordable housing loans, small business loans, and real estate development loans), and financial services provided in
distressed communities (such as access to automated teller machines and opening of savings accounts).

Promoting CDFI Investments through the BEA Program
The BEA Program prioritizes three types of activities. The first priority is to increase banks' financial support of
CDFIs in order to build CDFI self-sufficiency and capacity (referred to as CDFI-Related Activities). The second
and third priorities are to build the capacity of FDIC-insured depository institutions to expand their community
development lending and investments in severely underserved areas (referred to as Distressed Community
Financing Activities and Service Activities, respectively).

The CDFI Fund makes awards to applicants in the CDFI-Related priority before making awards to applicants in
the Distressed Community Financing Activities priority and Service Activities priority. The prospect of a BEA
Program award encourages banks to achieve this first priority by providing low-cost capital and operating
support to CDFIs, which has helped to create and sustain a network of CDFIs. CDFIs serve as conduits for
banks to effectively serve highly distressed neighborhoods.

Eligibility
All FDIC-insured depository institutions are eligible to apply for a BEA Program award. As stated above, the
BEA Program rewards actual increases in the dollar volume of Qualified Activities from a Baseline Period to a
later Assessment Period. Qualified Activities for each of the three main types of bank activities include:

        1) CDFI-Related Activities: Equity investments (grants, stock purchases, purchases of partnership
           interests, limited liability company membership interests, or equity-like loans); and CDFI support
           activities (loans, deposits or technical assistance) to certified CDFIs (referred to as CDFI Partners).

        2) Distressed Community Financing Activities: Loans or investments for affordable home mortgages,
           affordable housing development, education, home improvement, small businesses, and commercial
           real estate development in economically distressed communities.




                                                                                                                   31
        3) Service Activities: Deposits, financial services (such as check-cashing, money orders, or certified
           checks), targeted retail savings/investment products (such as electronic transfer accounts - ETAs),
           targeted financial services (such as individual development accounts - IDAs), or community services
           provided to low- to moderate-income individuals or the institutions serving them.

FY 2011 BEA Program Awards
The CDFI Fund announced the 2011 BEA awardees during the first quarter of FY 2012. Seventy seven (77) FDIC-
insured institutions were selected to receive approximately $22 million in FY 2011 BEA Program awards. In the FY
2011 funding round, awardees provided $59.7 million in qualified loans or investments in distressed communities,
$7.4 million in qualified loans, deposits and technical assistance to CDFIs, and $358 thousand in qualified financial
services in distressed communities.

FY 2012 BEA Program Awards
In FY 2012, the CDFI Fund received 71 eligible applications requesting a total of approximately $88.5 million,
compared to 82 applications requesting a total of approximately $78 million in FY 2011. FY 2012 applicants are
headquartered in 22 states and the District of Columbia, compared to the 23 states and the District of Columbia
represented in the prior year. The FY 2012 BEA Program application encountered delays in order to include
mandated Congressional language that at least 10 percent of BEA Program Awards are used for projects that
serve populations living in Persistent Poverty Counties, as defined below*. Therefore, the CDFI Fund’s BEA
Program awards will not be announced until the first quarter of FY 2013.

FY 2012 BEA Community Impact
FY 2012 BEA Program applicants increased their qualified community development activities by $432.4 million
over the prior year’s awardees:

        •    $403.5 million increase in loans and investments in distressed communities;

        •    $23.4 million increase in loans, deposits, and technical assistance to CDFIs; and

        •    $5.5 million increase in the provision of financial services in distressed communities.

The trend of investments and services in distressed communities and investments in CDFIs by prior years’ BEA
awardees is shown in the Distribution of BEA Program Awards by Category chart.




*
 The appropriation language defined Persistent Poverty Counties as any county that has had 20 percent or more of its
population living in poverty over the last 30 years, as measured by the 1990 and 2000 decennial censuses, and the 2010
American Community Survey.

                                                                                                                         32
* The 2012 BEA Program award announcement is expected during the first quarter of FY 2013.

Financial Education and Counseling Pilot Program
The program goals of the Financial Education and Counseling Pilot Program (FEC Pilot Program) are to identify
successful methods resulting in positive behavioral change for financial empowerment, and to establish program
models for organizations to carry out effective financial education and counseling services to prospective
homebuyers.

In FY 2010, the CDFI Fund was appropriated $4.1 million for the FEC Pilot Program, of which $3.1 million was
specifically appropriated for an award to an organization located in the State of Hawaii and $1 million was
appropriated in FY 2010 for the FEC Pilot Program. The CDFI Fund released the NOFA for this program on
May 28, 2010, and made award determinations in the first quarter of FY 2011. FY 2010 awardees are located in
Florida, Hawaii, New Mexico, and Pennsylvania.


                                                                                                            33
All awardees are required to submit performance reports for three years following the receipt of grant funds. No
funding was appropriated for FY 2011 and FY 2012.

Capital Magnet Fund
In its inaugural FY 2010 funding round for the Capital Magnet Fund (CMF), the CDFI Fund announced $80
million in competitively awarded grants to 23 CDFIs and qualified non-profit housing organizations serving 38
states. The CMF awards will be used to increase capital investment for the development, preservation,
rehabilitation, and purchase of affordable housing for low-, very low-, and extremely low-income families, and
for related economic development activities. The CDFI Fund received a total of 230 applications requesting $1
billion for the FY 2010 CMF funding round. No funding was appropriated for FY 2011 and FY 2012.

In FY 2013, the CDFI Fund will baseline awardees' performance reporting. In the first five years, awardees will
be required to report on the leveraging and use of CMF dollars and, once the funds are fully deployed, will report
annually the number of affordable housing units developed, the number/percentage of low-income
renters/owners, and the number/percentage of very low-income renters/owners.

CDFI Bond Guarantee Program
The CDFI Bond Guarantee Program (BG Program) was enacted through the Small Business Jobs Act of 2010.
Through the BG Program, the Secretary of the Treasury will provide a 100 percent guarantee of bonds (including
principal, interest, and call premiums) issued by Qualified Issuers. Bonds issued through the program will
support CDFI lending and investment activity in underserved communities by providing a source of long-term
capital. Qualified Issuers will use bond proceeds to finance loans for eligible community and economic
development purposes. In FY 2012, the CDFI Fund developed the program structure and terms and conditions.
Assuming that Congress provides the requisite appropriations authority, the CDFI Fund will begin program
implementation in FY 2013. In each of FY 2013 and FY 2014, the CDFI Fund anticipates providing up to $1
billion in bond guarantees to qualified bond issuers.




                                                                                                               34
Financial Management




                       35
Status of Financial Management
This section includes the assurance statement required under the Federal Managers’ Financial Integrity Act, a
summary of the results of the FY 2012 financial statement audit, a summary of the financial management
initiatives of the CDFI Fund during FY 2012, and a discussion of the CDFI Fund’s financial position and results
of operations during the past fiscal year.

Management Assurances
The Director, Community Development Financial Institutions (CDFI) Fund, is responsible for establishing and
maintaining effective internal control over financial reporting and has made a conscientious effort to meet the
internal control requirements of the Federal Managers’ Financial Integrity Act (FMFIA), the Federal Financial
Management Improvement Act (FFMIA), Office of Management and Budget (OMB) Circular A-123, and the
Reports Consolidation Act of 2000. The CDFI Fund is operating in accordance with the procedures and
standards prescribed by the Comptroller General and OMB guidelines.

The systems of management control for the CDFI Fund organizations under my purview are designed to ensure
that:

(a) Programs achieve their intended results;
(b) Resources are used consistent with overall mission;
(c) Programs and resources are free from waste, fraud, and mismanagement;
(d) Laws and regulations are followed;
(e) Controls are sufficient to minimize any improper or erroneous payments;
(f) Performance information is reliable;
(g) System security is in substantial compliance with all relevant requirements;
(h) Continuity of operations planning in critical areas is sufficient to reduce risk to reasonable
     levels; and
(i) Financial management systems are in compliance with federal financial systems standards, i.e., FMFIA
    Section 4 and FFMIA.

For all CDFI Fund responsibilities, we provide herein reasonable assurance that the above listed management
control objectives, taken as a whole were achieved by our office during FY 2012. Specifically, this assurance is
provided with reference to Sections 2 and 4 of the FMFIA. I further assure that the CDFI Fund’s financial
management systems are in substantial compliance with requirements imposed by FFMIA.

The analytical basis for this assurance being provided is based on management knowledge derived from
day-to-day management operations, monitoring of program results, and ongoing observations of staff and
program operations.

My assurance is based on the CDFI Fund’s assessment of management and internal controls, including existing
policies and procedures, knowledge gained from daily management activities, the review of various management
information reports attendant to those activities, reports and reviews by internal and external auditors, our annual
review performed pursuant to the Improper Payments Information Act, and our own understanding of the
requirements imposed by both FMFIA and FFMIA.




                                                                                                                  36
Donna J. Gambrell




Director, CDFI Fund




                      37
Description of the CDFI Fund’s Financial Management System
The CDFI Fund contracts for accounting services through a franchise agreement with the Bureau of the Public
Debt’s Administrative Resource Center (ARC) in Parkersburg, West Virginia. While the ARC maintains the
accounting system relating to the CDFI Fund’s transactions, the CDFI Fund is responsible for the generation of
all source documents and the accuracy of all accounting information.

The CDFI Fund’s financial management system includes the disbursement transactions maintained by ARC in
the accounting system, as well as records maintained and procedures performed by the CDFI Fund’s financial
management staff in the Office of the Deputy Chief Financial Officer (DCFO). The CDFI Fund’s resource
manager and Treasury’s DCFO are responsible for the administrative control of its funds, budget formulation and
execution, and review and analysis of financial information.

Results of FY 2012 Financial Statement Audit
The FY 2012 audit of the CDFI Fund’s financial statements resulted in an unqualified opinion.

FY 2012 Financial Management Initiatives
In FY 2012, financial management focus was on continuing to implement the information technology initiatives
identified in FY 2011.

Community Investment Impact System (CIIS)
CIIS is a Web-based system designed to collect an Institution Level Report (ILR) and Transaction Level Report
(TLR) from CDFIs and CDEs. The CIIS data collected from CDFIs include each organization’s profile, financial
position, portfolio, community impacts, development services, other products and services, and compliance
measures. The CIIS data collected from CDEs include each organization’s profile, QEI distribution, portfolio,
loan purchases, and financial counseling and other services.

Cumulatively through FY 2012, CIIS was used by 597 CDFIs and 218 CDEs to report institutional-level data,
with 44 organizations reporting in both categories. Through FY 2012, a cumulative 294 organizations submitted
data on more than 481,000 transactions in CDFI loan/investment portfolios.

In FY 2011, the CDFI Fund used the CIIS data to analyze the CDFIs’ loan and investment portfolios, capital
under management, operating revenues, and overall financial strength to assess the impact of the financial crisis
and recession on the performance of CDFIs. The analysis was published in March 2011 in a document entitled
The Financial Crisis and CDFIs: A Brief Look at 2007-2009 CIIS Data. FY 2011 marked the third time that the
CDFI Fund made the CIIS data available to the public (within the parameters of applicable Federal information
protection, privacy and confidentiality laws).

In accordance with the Transparency Act, the Privacy Act and other applicable laws and regulations, the CDFI
Fund released to the public in December 2011 the CDFI institutional and transactional level CIIS data for the
2004-2010 reporting years. The last data release for the 2003-2005 reporting period included only data from the
Institutional Level Report (ILR) and took place in December 2007. Since then, the size and scope of the CDFI
data have increased significantly by two orders of magnitude as it now includes detailed Transaction-Level
Report (TLR) data.
In order to comply with the Privacy Act, any personal information identifying borrowers as well as their race,
gender, etc. has been suppressed. In addition, in order to ensure the anonymity of borrowers and investors all
location information has been limited to city, state, five-digit zip code, and Census tract. Additional safeguards
are also in place.

                                                                                                                38
The main CIIS data files have been combined into four files:

1. The Institutional Level Report (ILR) is required of all awardees and contains basic information on an
organization’s financials, staffing levels and social impact metrics.
2. The Financial Transactional Level Report (TLR) contains detailed financial information including loan rates
and terms, social impact metrics, and transaction status (e.g. delinquencies, charge-offs, etc.), and is required of
most awardees.
3. TLR Address: Transaction Level Report contains the physical location (city, state, zip, and Census tract) of all
applicable transactions included in the TLR Financial file.
4. Portfolio Summary File contains summary data on loans originated and total portfolio outstanding. This file
allows comparison of ILR and TLR data across all CDFIs.

Use of Grants.gov for Paperless Processing of Grant Applications
The Federal Financial Assistance Management Improvement Act (FFAMIA) requires all federal grant-making
agencies to migrate 100 percent of their electronic grant program applications to the Grants.gov system
administered by the Department of Health and Human Services. In FY 2012, the CDFI Fund achieved 99%
compliance with the FFAMIA. The CDFI Fund was not able to receive five grant applications through
Grants.gov out of 478 total grant applications. During the transition of the Central Contractor Registration
(CCR) to the System for Award Management (SAM), five CDFI Fund grant applicants were unable to complete
the registration process for SAM prior to the CDFI Fund grant application deadline; therefore, these five
applicants were unable to use Grants.gov to apply. The CDFI Fund intends to continue working with Grants.gov
for the receipt of all future grant applications.

Migration to an Award Management Information System for Internal Application Processing
The FFAMIA requires that Federal grant-making agencies migrate their electronic grant processing systems to
one of three federally selected Centers of Excellence (CoE). This initiative is known as the “Grants Management
Line of Business” (GMLoB).

In July 2010, the CDFI Fund requested a waiver from compliance with GMLoB requirements. The Office of
Management and Budget (OMB) approved the request, noting that the CDFI Fund’s fit-gap analysis
demonstrated that none of the approved consortia aligned well with the CDFI Fund’s business processes. OMB
also approved the CDFI Fund’s request to acquire a new commercial off-the-shelf product to replace its legacy
business systems. This product, the Award Management Information System (AMIS), will be an enterprise
business system to meet the CDFI Fund’s award and tax credit allocation management requirements.

The CDFI Fund is in the acquisition phase for AMIS. Previously, the CDFI Fund had analyzed its mission-
oriented business processes and developed a single, enterprise business model that streamlined and eliminated
redundancies, and removed stove-piped and program-specific procedures. Based on this enterprise business
model, the CDFI Fund developed and released an acquisition package for AMIS. The CDFI Fund plans to award
an AMIS contract in early FY 2013 and complete deployment of AMIS in early FY 2015. With the deployment
of AMIS, the CDFI Fund expects to be able to handle larger volumes of grants, tax credits, and loan portfolios
while achieving more transparency and better data quality, and providing better service to customers.

Federal Funding Accountability and Transparency Act
Effective October 2010, the Federal Funding Accountability and Transparency Act of 2006 (FFATA) and its
2008 amendments require that all Federal grant-making agencies report on their grant activities on a publicly
viewable website, USASpending.gov. This creates a new obligation for awardees under the CDFI Fund’s award
programs to maintain active accounts in the System for Award Management (SAM), to identify their locations,
the places where most of their activities are concentrated, provide information about any first-tier subawards and
about the compensation of the five most highly paid people within the organizations (subject to certain

                                                                                                                 39
thresholds). In order to comply with this requirement, the CDFI Fund includes the standard award terms as
stipulated by FFATA in its assistance agreements and monitors the data quality of the information provided to
the USASpending.gov through the Federal Assistance Award Database System Plus. In addition, the CDFI Fund
has developed complementary guidance and highlights FFATA reporting requirements during post-award web-
seminars for all of the grant programs at the CDFI Fund to include the CDFI Program, the NACA Program, the
FEC Program, the CMF, and other programs that Congress may authorize and appropriate for the CDFI Fund to
administer.

Improper Payments Elimination and Recovery Act of 2010 (IPERA) On July 22, 2010, President
Obama signed into law the Improper Payments Elimination and Recovery Act (IPERA, Pub. L. 111-204). Office
of Management and Budget (OMB) implementing guidance Memorandum M-11-04, Increasing Efforts to
Recapture Improper Payments by Intensifying and Expanding Payment Recapture Audits, dated November 16,
2010, states that bureaus are responsible for increasing efforts to recapture improper payments by intensifying
and expanding Payment Recapture Audits under IPERA. The CDFI Fund is working with the Bureau of Public
Debt and Departmental Offices in order to prevent and recapture improper payments.

Management Responsibilities
CDFI Fund management is responsible for the fair presentation of information contained in the principal
financial statements in conformity with accounting principles generally accepted in the United States of America.
Management is also responsible for the fair presentation of the CDFI Fund’s performance measures in
accordance with the Office of Management and Budget requirements. The quality of the CDFI Fund’s internal
control structure rests with management, as does the responsibility for identification of and compliance with
applicable laws and regulations.

Limitations of the Financial Statements
The financial statements report the financial position and results of operations of the CDFI Fund for the fiscal
years ending on September 30, 2012 and 2011, pursuant to the requirements of 31 U.S.C. 3515(b). While the
statements have been prepared from the books and records of the CDFI Fund in conformity with accounting
principles generally accepted in the United States of America, the statements are in addition to the financial
reports used to monitor and control budgetary resources which are prepared from the same books and records.
The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity, and that the payment of all liabilities other than for contracts can be abrogated by the sovereign
entity.




                                                                                                                  40
Analysis of Financial Position and Results of Operations


                                   Summarized Financial Data
                                      (Amounts in Millions)
                                                                           Increase /
                                              FY 2012          FY 2011    (Decrease)
          Assets                               $283.7           $258.4          $25.3
          Liabilities                           $58.2            $80.1        ($21.9)
          Net Position                         $225.6           $178.2          $47.4
          Revenue and Financing
          Sources                              $172.3           $248.3       ($76.0)
          Expenses                             $172.9           $249.5       ($76.6)
          Shortage of Revenue and Financing
          (Net Loss)                            ($0.6)           ($1.2)         $0.6




                                                                                        41
D




Assets
Assets increased by $25.3 million during FY 2012, consisting primarily of a $32.9 million increase in the Fund
Balance with Treasury which includes appropriated and borrowed funds available to pay liabilities and to finance
authorized award and purchase commitments. Loans receivable also decreased due to $6.4 million in loan
repayments.

Fund Balance with Treasury
The Fund Balance with Treasury reflected a $32.9 million increase from the prior year, due to differences in the
timing of when appropriation revenue is received versus when expenses are paid.

Loans Receivable
Loans receivable are increased when loan awards (under the CDFI and NACA programs) are disbursed by the
CDFI Fund and decreased for loan repayments and loan write-offs. During FY 2012, net loans decreased by $7.1
million resulting, in part, from loan repayments of $6.4 million and an increase in the allowance for bad debts of
$0.8 million. The CDFI Fund had a slight increase in delinquent and impaired loans resulting in an increase in
the allowance for bad debts.

Investments
The CDFI Fund currently holds five types of investments with net balances as follows:

    • Non-voting equity securities - $14.6 million
    • Convertible subordinated debt - $0.5 million
    • Limited partnerships - $2.4 million
    • Secondary Capital - $3.1 million
    • Certificates of Deposit - $0.05 million



                                                                                                               42
The primary source of financial data used for the majority of assessments is the most recent audited financial
statements of the investees. These assessments determine whether any other–than–temporary impairments
should be recognized.

Liabilities
The decrease in liabilities during the year of $21.9 million consisted primarily of a decrease in awards payable of
$20.0 million and a decrease in debt of $2.6 million.

Awards Payable
Awards payable consists of CDFI Program awards of $22.6 million and BEA Program awards of $0.2 million.
Awards payable decreased by $20.0 million in FY 2012 as most CDFI Program awards were announced and
disbursed within FY 2012.

Debt
During FY 2012, the CDFI Fund borrowed $3.7 million due to a downward subsidy reestimate and $0.5 million to
meet annual interest payments due to the Treasury Department, at interest rates ranging partly from 1.85% to 6.48%,
depending on maturity dates or risk categories. The CDFI Fund borrowing was partly offset by the repayments of
amounts borrowed from Treasury totaling $6.7 million. Principal repayments collected from awardee loans during
the year are used to repay the Treasury borrowings, and therefore amounts collected and repaid to Treasury each year
will vary from year to year, as they are a function of awardee loan terms.

Net Position
Net position increased during the year by $47.4 million. Net position will change during the year as a result of
the following: 1) the difference between appropriations received (net of appropriations cancelled, rescinded and
adjusted for credit subsidy reestimates) and appropriations used; 2) any adjustment of the CDFI Fund’s subsidy
reestimate; and 3) the excess (shortage) of revenue and financing sources over (under) expenses. During FY
2012, appropriations received and appropriations for subsidy reestimate (net of amounts cancelled, rescinded and
downward subsidy reestimate) were $217.6 million, and appropriated capital used was $169.7 million resulting
in an increase in net position of $47.9 million. This increase in net position was offset slightly by the $0.6
million loss recorded by the CDFI Fund in FY 2012.

Revenue and Financing Sources
The primary source of revenue and financing sources for the CDFI Fund is the annual appropriation used to fund
expenses (“appropriated capital used” as reflected in the statement of operations). Pursuant to Federal grant
accounting requirements, the amount of appropriated funds recognized as revenue is, with certain adjustments,
equal to the amount of operating expenses for the year. Operating expenses for the year excluding those paid by
others were $170.0 million.




                                                                                                                 43
`
Expenses
The change in the CDFI Fund’s operating expenses, excluding administrative expenses paid by others during FY
2012 and FY 2011, consisted of the following:

                                      Comparison of Operating Expenses
                             Excluding Administrative Expenses Paid by Others
                                         Fiscal Years 2012 and 2011
                                          (Amounts in Millions)
                                                  FY 2012     FY 2011   Difference
                          Award Expenses           $148.6      $232.0    ($83.4)
                          Administrative
                          Expenses                  $20.6       $18.2      $2.4
                          Bad Debt Expense           $0.8       ($4.2)     $5.0
                          Total Operating
                          Expenses                 $170.0      $246.0    ($76.0)




Award Expenses
Award expenses during the year decreased $83.4 million primarily due a decrease of $80.0 million in CMF
awards; the CMF Program ended in FY 2011. CDFI Program award expenses decreased $25.2 million and BEA
award expenses increased $21.8 million due to the timing of the awards.




                                                                                                          44
Administrative Expenses
Administrative expenses increased by $2.4 million during FY 2012 primarily due to a $1.9 million increase in
Bond Guarantee Program expenses and a $0.9 million increase in contractual services resulting from information
technology enhancement projects. These increases were partially offset by a $0.6 million decrease in rent,
communications, utilities and miscellaneous charges.

Bad Debt Expense
Bad debt expense is a function of the impairment related to loans receivable at year-end including impact of
certain loan modifications made during the year. The CDFI Fund performs an analysis process that includes a
loan-by-loan review using key financial ratios from the awardees’ most recent audited financial statements. This
analysis results in both specific and general estimates of allowance necessary for FY 2012 and FY 2011. Bad
debt expense increased during FY 2012 by $0.8 million due to an increase in delinquent and impaired loans.

Net Loss
As stated above, the amount of appropriated capital used (the largest component of the CDFI Fund’s revenue) is,
with certain adjustments, equal to the amount of operating expenses for the year. Accordingly, the shortage of
revenue and other financing sources over expenses (net loss) will consist of the amount by which expenses not
covered by budgetary resources exceeds revenue and financial sources other than appropriated capital used.

For FY 2012, expenses not covered by budgetary resources totaled $1.7 million, consisting of interest expense on
Treasury borrowings. Interest and dividend income totaled $1.7 million.

In FY 2012, the CDFI Fund recorded an investment impairment loss of $0.3 million.




                                                                                                             45
Independent Auditors’ Report




                               46
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                         Independent Auditors’ Report


Inspector General
U.S. Department of the Treasury

Director
Community Development Financial Institutions Fund

We have audited the accompanying statements of financial position of the U.S. Department of the
Treasury’s Community Development Financial Institutions Fund (CDFI Fund) as of September 30, 2012
and 2011, and the related statements of operations and changes in net position, and cash flows (hereinafter
referred to as “financial statements”) for the years then ended. These financial statements are the
responsibility of the CDFI Fund’s management. Our responsibility is to express an opinion on these
financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the CDFI Fund’s
internal control over financial reporting. Accordingly, we express no such opinion. An audit also includes
examining, on a test basis, evidence supporting the amounts and disclosures in the financial statements,
assessing the accounting principles used and significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that our audits provide a reasonable
basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Community Development Financial Institutions Fund as of September 30, 2012
and 2011, and the results of its operations and cash flows for the years then ended in conformity with U.S.
generally accepted accounting principles.

The information in the Community Development Financial Institutions Fund Overview, Program
Discussion and Analysis, and Status of Financial Management sections is not a required part of the
financial statements. We have applied certain limited procedures, which consisted of inquiries of
management about the methods of measurement and presentation of this information. However, we did not
audit this information and, accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 12,
2012, on our consideration of the CDFI Fund’s internal control over financial reporting and our tests of its

                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Community Development Financial Institutions Fund
November 12, 2012
Page 2 of 2




compliance with certain provisions of laws, regulations, contracts, and grant agreements and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report in
assessing the results of our audits.




November 12, 2012
                                 KPMG LLP
                                 Suite 12000
                                 1801 K Street, NW
                                 Washington, DC 20006




             Independent Auditors’ Report on Internal Control Over Financial Reporting


Inspector General
U.S. Department of the Treasury

Director
Community Development Financial Institutions Fund

We have audited the statements of financial position of the U.S. Department of the Treasury’s Community
Development Financial Institutions Fund (CDFI Fund) as of September 30, 2012 and 2011 and the related
statements of operations and changes in net position, and cash flows (hereinafter referred to as “financial
statements”) for the years then ended, and have issued our report thereon dated November 12, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement.

The management of the CDFI Fund is responsible for establishing and maintaining effective internal
control over financial reporting. In planning and performing our fiscal year 2012 audit, we considered the
CDFI Fund’s internal control over financial reporting by obtaining an understanding of the design
effectiveness of the CDFI Fund’s internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial statements, but not for the purpose of
expressing an opinion on the effectiveness of the CDFI Fund’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the CDFI Fund’s internal control over
financial reporting. We did not test all internal controls relevant to operating objectives as broadly defined
by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2012 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
Community Development Financial Institutions Fund
November 12, 2012
Page 2 of 3




Exhibit I presents the status of the prior year’s material weaknesses.

We noted a certain additional matter that we have reported to management of the CDFI Fund in a separate
letter dated November 12, 2012.

This report is intended solely for the information and use of the addressees, OMB, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties.




November 12, 2012
                                                                                           Exhibit I

                          Community Development Financial Institutions Fund

                                     Status of Prior Year’s Findings




   Fiscal Year 2011 Findings &
        Recommendations                     Deficiency Type             Fiscal Year 2012 Status

I-A Grant Accruals - Implement             Material Weakness                    Closed
policies, procedures and controls
for grant accruals

I-B Grant Disbursements - Refine           Material Weakness                    Closed
policies and procedures for timing
of fund disbursements
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General
U.S. Department of the Treasury

Director
Community Development Financial Institutions Fund

We have audited the statements of financial position of the U.S. Department of the Treasury’s Community
Development Financial Institutions Fund (CDFI Fund) as of September 30, 2012 and 2011, and the related
statements of operations and changes in net position, and cash flows (hereinafter referred to as “financial
statements”) for the years then ended, and have issued our report thereon dated November 12, 2012.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the financial statements are free of material misstatement.

The management of the CDFI Fund is responsible for complying with laws, regulations, contracts, and
grant agreements applicable to the CDFI Fund. As part of obtaining reasonable assurance about whether
the CDFI Fund’s financial statements are free of material misstatement, we performed tests of the CDFI
Fund’s compliance with certain provisions of laws, regulations, contracts, and grant agreements,
noncompliance with which could have a direct and material effect on the determination of the financial
statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin No. 07-
04. We limited our tests of compliance to the provisions described in the preceding sentence, and we did
not test compliance with all laws, regulations, contracts, and grant agreements applicable to the CDFI
Fund. However, providing an opinion on compliance with those provisions was not an objective of our
audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance described in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04.

We noted a certain additional matter that we have reported to management of the CDFI Fund in a separate
letter dated November 12, 2012.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
Community Development Financial Institutions Fund
November 12, 2012
Page 2 of 2




This report is intended solely for the information and use of the addressees, OMB, the U.S. Government
Accountability Office, and the U.S. Congress and is not intended to be and should not be used by anyone
other than these specified parties.




November 12, 2012
Financial Statements and Notes




                                 54
                     Community Development Financial Institutions Fund
                             Statements of Financial Position
                           As of September 30, 2012 and 2011


                                                                         2012         2011
                                Assets


   Fund Balance with Treasury (Note 5)                              $   223,738,732   190,790,334
   Advances and prepayments                                                 155,920       268,995
   Loans receivable, net of allowance for bad
      debts of $7,822,492 in 2012 and $7,052,981 in 2011 (Note 6)        38,119,879    45,247,578
   Investments, amortized cost (Note 7)                                   3,636,860     3,922,396
   Investments, cost method (Note 9)                                     14,554,770    14,610,771
   Investments, equity method (Note 10)                                   2,405,372     2,615,220
   Interest and other receivable                                            491,426       296,172
   Internal-use software, net of accumulated amortization of
      $4,458,544 in 2012 and $4,291,958 in 2011                             435,011      601,597
   Internal-use software in development                                     208,345            -
                Total assets                                        $   283,746,315   258,353,063



                  Liabilities and Net Position

   Accounts payable                                                 $     1,104,506       636,399
   Awards payable                                                        22,782,621    42,752,841
   Accrued payroll                                                          541,847       479,408
   Accrued annual leave                                                     582,756       510,498
   Debt (Note 11)                                                        33,180,363    35,731,306
                Total liabilities                                        58,192,093    80,110,452

   Commitments (Note 12)

   Unexpended appropriations (Note 13)                                  208,892,405   160,937,168
   Cumulative results of operations                                      16,661,817    17,305,443
                Total net position                                      225,554,222   178,242,611

                Total liabilities and net position                  $   283,746,315   258,353,063




The accompanying notes are an integral part of these statements




                                                                                                    55
                        Community Development Financial Institutions Fund
                       Statements of Operations and Changes in Net Position
                             Years Ended September 30, 2012 and 2011



                                                                       2012          2011

Revenue and financing sources:
  Appropriations                                                  $   169,650,386   245,929,283
  Imputed other income - expenses paid by others (Note 14)                903,840       895,512
  Interest, non-federal                                                   918,960     1,062,081
  Interest, federal                                                        82,572       134,717
  Dividends                                                               131,919       130,780
  Other                                                                   260,811        78,587
  Equity in income of associates, net                                     352,146        74,109
     Total revenue and financing sources                              172,300,634   248,305,069


Expenses:
  CDFI and CMF grants (Note 15)                                       126,682,863   231,927,165
  BEA grants                                                           21,951,000        125,100
  Administrative expenses (Note 16)                                    20,580,133    18,183,728
  Increase in (reversal of) bad debt expense                              769,511    (4,225,036)
  Administrative expenses paid by others (Note 14)                        903,840        895,512
    Total operating expenses                                          170,887,347   246,906,469


  Interest expense, federal                                             1,742,070     1,865,874
  Impairment losses                                                       145,764       777,649
  Discount on investments                                                 169,079             -

    Total expenses                                                    172,944,260   249,549,992

  Net loss                                                        $     (643,626)    (1,244,923)

Cumulative results of operations, beginning of year               $    17,305,443    18,550,366
Net loss                                                                (643,626)    (1,244,923)

    Cumulative results of operations, end of year                 $    16,661,817    17,305,443



The accompanying notes are an integral part of these statements




                                                                                             56
                        Community Development Financial Institutions Fund
                                   Statements of Cash Flows
                           Years Ended September 30, 2012 and 2011


                                                                                         2012           2011
Cash flows from operating activities:
  Net loss                                                                         $     (643,626)     (1,244,923)
 Adjustments to reconcile net loss to net cash (used in) provided by operations:
    Impairment losses                                                                      145,764         777,649
    Discount on investments                                                                169,079               -
    Equity in gain of associates                                                         (352,146)        (74,109)
    Amortization expense (Note (4h))                                                       166,586         351,857
    Accretion of discount                                                                 (73,307)        (73,307)
    Increase in (reversal of) bad debt expense                                             769,511     (4,225,036)
  Change in assets and liabilities:
    Decrease (increase) in advances and prepayments                                         113,075       (23,140)
    Decrease (increase) in interest and other receivable                                  (195,254)       147,788
    Increase in accounts payable and accrued payroll                                        530,546       441,809
    Increase (decrease) in awards payable                                              (19,970,220)    10,859,118
    Increase (decrease) in accrued annual leave                                              72,258        (1,526)

                   Net cash (used in) provided by operating activities                 (19,267,734)     6,936,180

Cash flows from investing activities:
    Proceeds from disposition of investments                                               661,995        477,005
    Internal-use software in development                                                 (208,345)              -
    Disposition of internal-use software                                                         -         61,069
    Collection of loan principal                                                         6,358,188      3,249,022

                   Net cash provided by investing activities                             6,811,838      3,787,096

Cash flows from financing activities:
    Increase (decrease) in unexpended appropriations, net                               47,955,237    (17,631,534)
    Borrowings from Treasury                                                              4,158,278      1,805,699
    Borrowing re-payments to Treasury                                                   (6,709,221)    (7,813,743)

                   Net cash provided by (used in) financing activities                  45,404,294    (23,639,578)

                   Net change in Fund Balance with Treasury                             32,948,398    (12,916,302)

Fund Balance with Treasury, beginning of year                                          190,790,334    203,706,636

Fund Balance with Treasury, end of year                                            $   223,738,732    190,790,334




The accompanying notes are an integral part of these statements




                                                                                                                     57
COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS FUND

               Notes to Financial Statements

               September 30, 2012 and 2011




                                                    58
(1)   Description of Reporting Entity
      The Community Development Financial Institutions Fund (CDFI Fund) was created as a bipartisan
      initiative in the Riegle Community Development and Regulatory Improvement Act of 1994 (Public Law
      No. 103-325). The CDFI Fund was placed in the Department of the Treasury and began operations in
      July 1995.

      The CDFI Fund operates various programs aimed at expanding the availability of credit, investment
      capital, and financial and other services in distressed urban, rural, and Native American communities. The
      CDFI Fund is intended to help create a national network of financial institutions dedicated to community
      development that leverages private resources (financial and human) to address community development
      needs.

      The major programs operated by the CDFI Fund are the Community Development Financial Institutions
      Program (consisting of a Financial Assistance and Technical Assistance Component), the New Markets
      Tax Credit Program, the Bank Enterprise Awards Program, Native Initiatives and the Capital Magnet
      Fund.

      The Community Development Financial Institutions (CDFI) Program provides financial and technical
      assistance awards to certified community development financial institutions (CDFIs) which in turn provide
      services to create community development impact in underserved markets. Financial assistance awards
      take the form of grants, direct loans, and equity investments. Technical Assistance grants provide
      assistance to start-up and early-stage CDFIs and entities planning to become CDFIs.

      The CDFI Fund implemented the New Markets Tax Credit (NMTC) Program during fiscal year 2002.
      Under this program, the CDFI Fund provides an allocation of tax credits to Community Development
      Entities (CDEs), which use these credits to attract private sector investment. Proceeds from these
      investments are used for community development purposes. Unlike the CDFI Fund’s grant programs, the
      allocation of tax credits to CDEs has no effect on the financial statements of the CDFI Fund.

      The Bank Enterprise Award (BEA) Program provides incentives to insured depository institutions (banks
      and thrifts) to invest in CDFIs and to increase their lending and financial services in distressed
      communities. Program participants are selected based on projected achievements. The awards are
      disbursed only after the activities have been implemented successfully, to ensure that only completed
      activities are recognized and that the CDFI Fund’s limited dollars are effectively leveraged with private
      capital.

      Through the Native American CDFI Assistance (NACA) Program, a component of the Native Initiatives,
      the CDFI Fund provides grants to help create CDFIs and to build the capacity of existing Native CDFIs
      that serve primarily Native American, Alaska Native, and Native Hawaiian communities.

      Through the Capital Magnet Fund (CMF), the CDFI Fund provides competitively awarded grants to CDFIs
      and qualified nonprofit housing organizations. CMF awards can be used to finance affordable housing
      activities as well as related economic development activities and community service facilities. Awardees
      will be able to utilize financing tools such as loan loss reserves, loan funds, risk-sharing loans, and loan
      guarantees to produce eligible activities whose aggregate costs are at least ten times the size of the award
      amount.




                                                                                                               59
(2)   Community Development Financial Institutions Bond Guarantee Program

      The CDFI Bond Guarantee Program was enacted through the Small Business Jobs Act of 2010 (Public
      Law 111-240) on September 27, 2010. The CDFI Fund will serve as the program administrator and the
      U.S. Department of the Treasury (Treasury Department) will guarantee the full amount of notes or bonds
      issued to support CDFIs that make investments for eligible community or economic development
      purposes. The bonds or notes are intended to support CDFI lending and investment by providing a source
      of long-term, patient capital to CDFIs. The law provides $13.5 million be made available to the CDFI
      Fund to establish and administer the program. The CDFI Fund expects to promulgate program regulations
      during fiscal year 2013, and subject to Congressional action, begin program implementation in fiscal year
      2013.

(3)   Limitations of the Financial Statements

      The financial statements report the financial position and results of operations of the CDFI Fund for the
      fiscal years ending on September 30, 2012 and 2011, pursuant to the requirements of 31 U.S.C. 3515(b).
      While the statements have been prepared from the books and records of the CDFI Fund in conformity with
      accounting principles generally accepted in the United States of America, the statements are in addition to
      the financial reports used to monitor and control budgetary resources which are prepared from the same
      books and records. The statements should be read with the realization that they are for a component of the
      U.S. Government, a sovereign entity, and that the payment of all liabilities other than for contracts can be
      abrogated by the sovereign entity.

(4)   Summary of Significant Accounting Policies

      (a)   Basis of Presentation
            The American Institute of Certified Public Accountants (AICPA) has designated the Federal
            Accounting Standards Advisory Board (FASAB) as the standards-setting body for financial
            statements of federal governmental entities, with respect to the establishment of accounting
            principles generally accepted in the United States of America. SFFAS 34, issued by FASAB,
            provides authoritative guidance allowing federal entities to prepare financial statements in
            conformance with accounting and reporting principles issued by the Financial Accounting Standards
            Board (FASB). Accordingly, the CDFI Fund financial statements are presented in accordance with
            accounting standards published by FASB.

      (b) Reclassifications
            In fiscal year 2012, changes to the presentation of Footnote 16, Administrative Expenses, were
            made, and as such, fiscal year 2011 balances reported in Footnote 16 have been reclassified to
            conform to the presentation in the current year.

      (c)   Use of Estimates
            The preparation of financial statements in conformity with accounting principles generally accepted
            in the United States of America requires management to make estimates and assumptions that affect
            the reported amounts of assets and liabilities and disclosure of contingent assets and liabilities at the
            date of the financial statements and the reported amounts of revenues and expenses during the
            reporting period. Actual results could differ from these estimates. Significant items subject to such
            estimates include allowance for bad debts and the identification and valuation of investment
            impairments.



                                                                                                                   60
(d)   Fund Balance with Treasury
      The CDFI Fund does not maintain cash in commercial bank accounts. The Treasury Department
      processes cash receipts and disbursements. Fund Balance with Treasury is composed primarily of
      appropriated and borrowed funds (financing and program accounts) that are available to pay
      liabilities and finance authorized award and purchase commitments.

(e)   Loans Receivable, net of Allowance for Bad Debts
      Loans receivable relate to direct loans made to certain CDFI Program awardees and are recorded at
      face value on the closing date. Direct and incremental loan costs are deemed to be de minimis. Any
      interest is recognized over the life of the loan, when earned. Amounts collected on loans receivable
      are included in cash flows from investing activities in the statements of cash flows. During fiscal
      years 2012 and 2011, the CDFI Fund received requests from awardees requesting an extension of
      their maturity dates. The requests were processed in collaboration with the Department of the
      Treasury Office of the Deputy Chief Financial Officer (DCFO). A restructuring of a loan constitutes
      a troubled debt restructuring for purposes of FASB ASC-310-40 if the creditor grants a concession to
      the debtor that it would not otherwise consider. While the loan extensions are being processed,
      awardees do not make principal payments. The CDFI Fund continues to accrue and collect interest
      on all loans that are under restructuring.

      The allowance for bad debts is the CDFI Fund’s best estimate of the amount of credit losses in the
      CDFI Fund’s existing loans. The allowance includes both specific and non-specific loan analysis.
      The non-specific portion of the allowance considers historical loss experience adjusted for current
      factors. The historical loss experience is based on actual loss history experienced by the CDFI Fund
      over the most recent seven years. This actual loss experience is supplemented with other economic
      factors that include consideration of the following: levels of and trends in delinquencies and
      impaired loans; levels of and trends in write-offs; the number of loan restructurings processed in the
      current year; and the recent performance of previously restructured loans. The specific portion is
      determined on an individual basis upon review of any loan that has a past due balance or no payment
      required until maturity, was modified during the year, or was included in the specific allowance in
      the prior year. A loan is considered impaired if it is probable that the CDFI Fund will not collect all
      principal and interest contractually due. The impairment is measured based on the present value of
      the expected future cash flows discounted at the loan’s effective interest rate. Impairment losses are
      charged against the allowance and increases in the allowance are charged to bad debt expense.
      Loans are written off against the allowance when all possible means of collection have been
      exhausted and the potential for recovery is considered remote.

(f)   Interest and Other Receivable
      Interest is accrued on the outstanding loans receivable principal balances and investments based on
      stated rates of interest as earned and when determined collectible. Interest is not accrued past the
      maturity date of loans receivable and investments.

(g)   Investments
      The CDFI Fund provides assistance to certain for-profit CDFI program awardees by purchasing
      various investments described below. The CDFI Fund is restricted from owning more than 50% of
      the equity of awardees and from controlling their operations. Held-to-maturity debt securities are
      those debt securities in which the CDFI Fund has the ability and intent to hold the security until
      maturity. None of the investments meet the criteria for Variable Entity Interest Accounting.

             Non-voting Equity Securities: These investments are carried at original cost subject to other-
              than-temporary impairments.

                                                                                                          61
             Secondary Capital Interests: These interests are held-to-maturity and carried at amortized
              cost, net of applicable discounts, subject to other-than-temporary impairments.

             Convertible Subordinated Debt: This instrument exhibits sufficient characteristics of an
              equity security as the CDFI Fund is entitled to any dividends in the non-voting common
              stock as if the CDFI Fund had converted the debentures into such stock prior to the
              declaration of the dividend. This investment is held-to-maturity and carried at amortized
              cost, net of applicable discounts, subject to other-than-temporary impairments.

             Limited Partnership Interests: These interests are carried in accordance with the equity
              method of accounting by recognizing the pro-rata share of investee profit/loss through the
              statement of operations. Investments are further subject to assessment of any other-than-
              temporary impairments as discussed below.

             Certificates of Deposits: These investments are held-to-maturity and recognized at cost as
              they are fully insured.

      Held-to-maturity debt securities are recorded at amortized cost, adjusted for the amortization of
      premiums or discounts. Premiums and discounts are amortized over the life of any related held-to-
      maturity security as an adjustment to yield using the straight-line method.

      For non-voting equity securities and limited partnerships, a decline in the fair value of any security
      below cost that is deemed to be other-than-temporary results in an impairment to reduce the carrying
      amount to fair value. The impairment is charged to earnings and a new cost basis for the security is
      established. To determine if an impairment is other-than-temporary, the CDFI Fund considers
      whether (1) it has the ability and intent to hold the investment until a market price recovery and (2)
      evidence indicating the cost of the investment is recoverable outweighs evidence to the contrary.
      Evidence considered in this assessment includes the reasons for the impairment, the severity and
      duration of the impairment, changes in value subsequent to year-end, forecasted performance of the
      investee, and the general market condition in the industry in which the investee operates.

(h)   Internal-Use Software
      Internal-use software represents the completed phases of various software placed in service
      pertaining to 1) processing applications – this software automates the award application submission
      process; 2) geocoding – web-based software that geocodes addresses, census tracts and counties, and
      enables applicants to determine the funding eligibility of census tracts and counties under CDFI’s
      various programs; and 3) the Community Investment Impact System (CIIS) – a web-based data
      collection system for CDFI’s and Community Development Entities.
      The software is amortized using the straight-line method over the estimated useful life of seven
      years. Amortization expense for the years ended September 30, 2012 and 2011 was $166,586 and
      $351,857, respectively.

(i)   Internal-Use Software in Development
      Internal-use software encompasses software design, development, and testing of projects adding
      significant new functionality and long-term benefits. Costs for developing internal-use software are
      accumulated in internal-use software in development until a project is placed into service, and testing
      and final acceptance are successfully completed. Once completed the costs are transferred to
      internal-use software.



                                                                                                           62
(j)   Leases
      At the beginning of each fiscal year the CDFI Fund obtains the estimated annual amount for all
      operating leases. The CDFI Fund then establishes an obligation to be recorded within the financial
      system for the full amount of the estimate. The CDFI Fund approves each monthly Intra-
      governmental Payment and Collection transaction and submits the approved form to the Bureau of
      Public Debt (BPD) for processing on a monthly basis. Rent payments are recognized on a straight-
      line basis over the term of the lease.

(k)   Awards Payable
      CDFI Program and CMF grant expense is recognized and awards payable are recorded when the
      fund is made aware, in writing, that the awardee has met the conditions required for payment and the
      CDFI Fund approves a grant disbursement to be made. BEA Program grant expense is recognized
      and awards payable are recorded when the CDFI Fund approves the BEA award to be made (i.e. at
      the time the funds are obligated).

(l)   Retirement Plans
      CDFI Fund employees participate in the Civil Service Retirement System (CSRS) or the Federal
      Employees’ Retirement System (FERS). The FERS was established by the enactment of Public Law
      99-335. Pursuant to this law, FERS and Social Security automatically cover most employees hired
      after December 31, 1983.

      Employees hired prior to January 1, 1984, were provided an opportunity to join either FERS and
      Social Security or remain in CSRS. The amount of cost recognized by the CDFI Fund for these
      contributions for the years ended September 30, 2012 and 2011 was $764,252 and $681,519,
      respectively.

      For all employees, a Thrift Savings Plan (TSP) account is automatically established, and the
      employee can have up to a predetermined maximum amount withheld from their base salary, which
      is deposited into their TSP account. For FERS employees only, the CDFI Fund makes matching
      contributions ranging from 1% to 4% for employees who contribute to their TSP account (there is no
      matching contribution for CSRS employees). The amount of cost recognized by the CDFI Fund for
      these contributions for the years ended September 30, 2012 and 2011 was $276,937 and $244,419,
      respectively.

      In addition, CDFI Fund employees participating in CSRS have 7% of their base salary withheld
      which is contributed into a Retirement Fund. The CDFI Fund contributes the same amount into the
      Retirement Fund. The amount of cost recognized by the CDFI Fund for these contributions for the
      years ended September 30, 2012 and 2011 was $45,686 and $46,181, respectively.

      FERS employees and CSRS reinstatement employees are eligible to participate in the Social Security
      program for retirement. In these instances, the CDFI Fund remits the employer’s share of the
      required contribution.

(m)   Annual, Sick, and Other Leave
      Annual leave and compensatory leave is accrued as a liability when earned by the employee, and the
      accrual is reduced as leave is taken. The balance in this accrued liability account is computed using
      current pay rates. Sick leave and other types of non-vested leave are expensed as the leave is taken.




                                                                                                         63
(n)   Debt
      Debt represents borrowings payable to the Treasury Department that were made to fund direct loans
      made by the CDFI Program and other aspects of permissible borrowing authority. Principal
      repayments to the Treasury Department are required to be made based on the collections of loans
      receivable and are due September 30 of each year of maturity.

(o)   Contingencies
      Liabilities for loss contingencies arising from claims, assessments, litigation, fines, penalties and
      other sources are recorded when it is probable that a liability has been incurred and the amount of the
      obligation can be reasonably estimated. Legal costs incurred in connection with loss contingencies
      are expensed as incurred. The CDFI Fund currently has no contingent liabilities meeting the
      disclosure or recognition thresholds.

(p)   Revenue and Other Income
      The CDFI Fund receives the majority of its funding through appropriations from the U.S. Congress.
      The CDFI Fund receives two-year appropriations that may be used, within statutory limits, for
      awards and operating expenses. Appropriations are recognized as revenues at the time the CDFI
      Fund’s grants are recorded as expenses, and when administrative expenses and provision for bad
      debts covered by budgetary resources are incurred.

      Occasionally, the CDFI Fund receives dividends on its equity investments and may use those funds
      for awards and operating expenses. Dividends are recognized when earned.

      Additional revenue is obtained from interest received on direct loans and on uninvested funds held
      by the Treasury Department. Interest is recognized when earned.

(q)   Tax Status
      The CDFI Fund, as a government entity, is not subject to federal, state, or local income taxes and,
      accordingly, no provision for income tax is recorded.

(r)   Fair Value Measurements
      The CDFI Fund applies the provisions of ASC Topic 820, Fair Value Measurements, for fair value
      measurements of financial assets and financial liabilities and for fair values measurements of
      nonfinancial items that are recognized or disclosed at fair value in the financial statements on a
      nonrecurring basis. This standard defines fair value, establishes a consistent framework for
      measuring fair value and expands disclosure requirements for fair value measurements. This
      standard establishes a fair value hierarchy that prioritizes the inputs to valuation techniques used to
      measure fair value. The hierarchy gives the highest priority to unadjusted quoted prices in active
      markets for identical assets or liabilities (Level 1 measurements) and the lowest priority to
      measurements involving significant unobservable inputs (Level 3 measurements). The three levels
      of the fair value hierarchy are as follows:

       Level 1 inputs are quoted prices (unadjusted) in active markets for identical assets or liabilities
      that the CDFI Fund has the ability to access at the measurement date.

       Level 2 inputs are inputs other than quoted prices included within Level 1 that are observable for
      the asset or liability, either directly or indirectly.

         Level 3 inputs are unobservable inputs for the asset or liability.

                                                                                                              64
      See Note 8 for more information and disclosures relating to the CDFI Fund’s fair value
      measurements.

(s)   Recent Accounting Pronouncements

      In January 2010 FASB issued Accounting Standards Update 2010-06, Improving Disclosures about
      Fair Value Measurements, providing amendments to ASC Topic 820, Fair Value Measurements and
      Disclosures. These amendments require new disclosures pertaining to activity in Level 3 fair value
      measurements. The new disclosures are effective for annual reporting periods beginning after
      December 15, 2010. The new guidance expands the CDFI Fund’s fair value disclosures but has not
      had any impact on its statements of financial position or statements of operations.

      In July 2010 FASB issued Accounting Standards Update 2010-20, Disclosures about the Credit
      Quality of Financing Receivables and the Allowance for Credit Losses, providing amendments to
      ASC Topic 310, Receivables. The objective of these amendments is for an entity to provide
      disclosures that facilitate financial statement user’s evaluation of the following: 1) the nature of
      credit risk inherent in the entity’s portfolio of financing receivables, 2) how that risk is analyzed and
      assessed in arriving at the allowance for credit losses, and 3) the changes and reasons for those
      changes in the allowance for credit losses. The existing disclosures are amended to require
      disclosures about an entity’s financing receivables on a disaggregated basis. The amendments also
      require additional disclosures about financing receivables. For nonpublic entities the disclosures are
      effective for annual reporting periods ending on or after December 15, 2011. The new guidance
      expands the CDFI Fund’s credit quality disclosures but has not had any impact on its statements of
      financial position or statements of operations.

(t)   Newly Issued Not Yet Effective Accounting Standards

      In April 2011 FASB issued Accounting Standards Update 2011-02, A Creditor’s Determination of
      Whether a Restructuring is a Troubled Debt Restructuring, providing amendments to ASC Topic
      310, Receivables. The objective of these amendments is to clarify the guidance on a creditor’s
      evaluation of whether it has granted a concession and whether a debtor is experiencing financial
      difficulties for purposes of determining whether a restructuring constitutes a troubled debt
      restructuring. For nonpublic entities the disclosures are effective for annual reporting periods ending
      on or after December 15, 2012. The CDFI Fund does not expect that these amendments will have a
      material impact on its statements of financial position or statements of operations.

      In May 2011, the FASB issued Accounting Standards Update 2011-04, Amendments to Achieve
      Common Fair Value Measurement and Disclosure Requirements in U.S. GAAP and IFRS, providing
      amendments to ASC Topic 820, Fair Value Measurements. The new standards do not extend the use
      of fair value but, rather, provide guidance about how fair value should be applied where it already is
      required or permitted under IFRS or U.S. GAAP. For U.S. GAAP, most of the changes are
      clarifications of existing guidance or wording changes to align with IFRS. A nonpublic entity is
      required to apply the ASU prospectively for annual periods beginning after December 15, 2011. The
      CDFI Fund does not expect that these amendments will have a material impact on its statements of
      financial position or statements of operations.




                                                                                                             65
(5)   Fund Balance with Treasury
      Fund Balance with the Department of the Treasury as of September 30, 2012 and 2011 consisted of the
      following components:



                                                                       2012                 2011

                   Available                               $          43,293,027          53,503,763
                   Obligated                                         176,682,185         135,472,769
                   Expired                                             3,763,520           1,813,802

                                                           $         223,738,732         190,790,334


      Fund Balance with the Department of the Treasury includes appropriated and borrowed funds available to
      pay liabilities and to finance authorized award and purchase commitments.

(6)   Loans Receivable
      The CDFI Fund assesses and monitors the credit quality of its loans on an ongoing basis using audited
      financial statements of awardees. All loans receivable are considered part of the CDFI Fund’s business
      loan portfolio; the CDFI Fund does not further disaggregate loans by segment or class. All loans
      receivable have been assessed and monitored through September 30, 2012.
      The CDFI Fund is exposed to several risk factors related to its loans receivable:

             Risk of a deteriorating economic climate and its impact on the CDFI Fund’s collection of loans.

             Economic, industry, and geographic risks associated with unsecured loans to small financial
              institutions.

      As of September 30, 2012 the CDFI Fund had a total recorded investment in impaired loans from troubled
      debt restructurings of $4,402,500 of which $3,582,500 had a related allowance for bad debt of $2,322,500.
      The amount of the recorded investment in impaired loans for which there is no related allowance for bad
      debt is $820,000. The CDFI Fund had a total recorded investment in other impaired loans of $1,636,870
      and a $1,546,870 related allowance for bad debt. As of September 30, 2011 the CDFI Fund had a total
      recorded investment in impaired loans from troubled debt restructurings of $3,705,000 of which
      $3,375,000 had a related allowance for bad debt of $1,965,000. The amount of the recorded investment in
      impaired loans for which there is no related allowance for bad debt was $330,000. The CDFI Fund had a
      total recorded investment in other impaired loans of $1,236,870 and a $1,236,870 related allowance for
      bad debt.

      During the years ended September 30, 2012 and 2011 the CDFI Fund had average recorded investments in
      impaired loans of $5,766,037 and $4,745,203, respectively. During these years the CDFI Fund recognized
      related interest income of $99,950 and $83,620, respectively. The CDFI Fund recognizes interest income
      on impaired loans as earned in accordance with loan agreements.

      For the years ended September 30, 2012 and 2011, grants in the amount of $0 and $3,000,000,
      respectively, were disbursed to debtors owing receivables whose terms have been modified in troubled
      debt restructurings. As of September 30, 2012 and 2011 there were commitments in the amount of
      $4,961,418 and $0, respectively to disburse grants to debtors owing receivables whose terms have been
      modified in troubled debt restructurings.

                                                                                                                66
       The activity in the allowance for bad debt and recorded investment in loans receivable for the years ended
       September 30, 2012 and 2011 were as follows:


                                                         2012             2011
       Allowance for bad debt:
          Beginning balance                       $     7,052,981      11,278,017
          Write-offs                                            -                -
          Recoveries                                            -                -
          Provision                               $       769,511      (4,225,036)

                                                  $     7,822,492        7,052,981


          Individually evaluated for impairment   $     3,869,370        3,201,870

          Collectively evaluated for impairment   $     3,953,122        3,851,111

       Loans receivable:

          Individually evaluated for impairment   $     9,093,338        9,395,838

          Collectively evaluated for impairment   $    36,849,033       42,904,721

                                                  $    45,942,371       52,300,559




The CDFI Fund utilizes a rating system to classify loans according to credit worthiness and risk. Each loan is
categorized as pass, doubtful or loss.

A description of each category (credit quality indicator), in terms of the attributes of the borrower, the business
environment in which the borrower operates or the loan itself, follows:

Credit Quality Indicators                             Descriptions

                                 Timely interest and principal payments; strong debt service capacity, liquidity and
Pass
                                 viability; very favorable operating environment.

                                 Weak debt service capacity, liquidity and/or viability; evidence of financial
Doubtful                         deterioration; likely to repay but with hardship.

                                 Poor financial performance; serious liquidity, debt service capacity and/or viability
Loss                             issues; going concern issues; full loss is probable.

The credit quality indicators for loans receivable as of September 31, 2012 and 2011 were as follows:




                                                                                                                         67
                      Total Loans


                 2012           2011
 Pass      $   40,723,001     47,688,689
Doubtful        2,250,000      2,350,000
 Loss           2,969,370      2,261,870

 Total     $   45,942,371     52,300,559




                                           68
The following table provides an analysis of the aging of the past due loans receivable as of September 31,
2012 and 2011:
                                                                                                                     Recorded
                    30-60       61-90        Greater than                                             Total         Investment
                    Days        Days           90 Days         Total Past                           Financing      > 90 Days and
                   Past Due    Past Due       Past Due           Due             Current           Receivables       Accruing

   2012        $         -         -         1,150,000        1,150,000       44,792,371          45,942,371             -




                                                                                                                     Recorded
                    30-60       61-90          Greater                                               Total          Investment
                    Days        Days         than 90 Days      Total Past                          Financing       > 90 Days and
                   Past Due    Past Due        Past Due          Due             Current          Receivables        Accruing

   2011        $         -         -         1,000,000        1,000,000       48,300,559          49,300,559             -




The following table illustrates certain required information related to impaired loans as of September 31,
2012 and 2011:


                                                                                                      Average           Interest
                                     Recorded            Unpaid Principal         Related             Recorded          Income
    2012                            Investment              Balance              Allowance           Investment        Recognized
 With no related allowance
 recorded:
   Loans
                               $           820,000             820,000                        -         546,667              20,600
 With an allowance recorded:
   Loans
                                          5,219,370           5,219,370           3,869,370            5,219,370             79,350
    Total                      $          6,039,370           6,039,370           3,869,370            5,766,037             99,950




                                                                                                      Average           Interest
                                        Recorded          Unpaid Principal        Related             Recorded          Income
    2011                               Investment            Balance             Allowance           Investment        Recognized
 With no related allowance
 recorded:
   Loans                       $             330,000                330,000                -            206,250                 15,675
 With an allowance recorded:
   Loans                                    4,611,870             4,611,870       3,201,870           4,538,953                 67,945
    Total                      $            4,941,870             4,941,870       3,201,870           4,745,203                 83,620




                                                                                                                                      69
      The loans receivable in nonaccrual status as of September 30, 2012 and 2011 are as follows:


                                                            2012            2011

                               Total                $    1,150,000 $       1,000,000


(7)   Investment Securities
      The carrying amount, net of applicable discounts, gross unrealized holding losses and fair value of held-to-
      maturity debt securities by major security type at September 30, 2012 and 2011 are as follows:


                                                                                  Gross         Amortized Cost
                                                         Aggregate Fair         Unrealized       (Net Carrying
                                                             Value                Loss             Amount)

       Investments, Held-to-Maturity at September 30, 2012:
          Certificates of deposit                     $               50,000    $          -      $       50,000
          Convertible debt securities                                 456,412               -             456,412
          Secondary capital securities                              3,130,448               -           3,130,448
                      Total                           $            3,636,860    $          -       $    3,636,860


       Investments, Held-to-Maturity at September 30, 2011:
         Certificates of deposit                        $            150,000    $          -       $      150,000
         Convertible debt securities                                  368,206               -             368,206
         Secondary capital securities                               3,404,190               -           3,404,190
                     Total                              $          3,922,396    $          -       $    3,922,396




                                                                                                               70
      Maturities of debt securities classified as held-to-maturity were as follows at September 30, 2012:

                                                                                          Net Carrying
                                                                    Fair Value              Amount
       Held-to-Maturity:
               Due within one year                            $       1,047,194      $       1,047,194
               Due after one through five years                          74,617                 74,617
               Due after five through ten years                         800,000                800,000
               Due after ten years                                    1,715,049              1,715,049
                                                              $       3,636,860      $       3,636,860



      The CDFI Fund evaluates whether unrealized losses on investment securities indicate other-than-
      temporary impairment. Significant factors considered include investee audit opinions, regulatory findings
      and trends in various financial criteria. Based on this evaluation, the CDFI Fund recognized no other-than-
      temporary impairment losses of these investments in 2012 or 2011.

      Convertible debt securities consist of non-interest bearing convertible subordinated debentures. As of
      September 30, 2012 and 2011, this category consists of one debenture of $2 million notional amount
      (amortized cost of $456,412 and $368,206 as of September 30, 2012 and 2011, respectively) which
      matures January 2048 with the option to convert into 200,000 shares of non-voting class B common stock
      at a $10 per share conversion price.

      Secondary capital securities consist of investments that cannot be redeemed prior to scheduled redemption
      dates.

      Certificate of deposit is an investment in a federal credit union awardee, and has an interest rate of
      zero percent.

(8)   Fair Value Measurements
      (a)   Fair Value of Financial Instruments

            The following table presents the carrying amounts and estimated fair values of the CDFI Fund’s
            financial instruments at September 30, 2012 and 2011. The fair value of an instrument is the amount
            that would be received to sell an asset or paid to transfer a liability in an orderly transaction between
            market participants at the measurement date.




                                                                                                                  71
                                                                 2012                                          2011

                                              Carrying amount           Fair value           Carrying amount              Fair value

      Financial assets:
              Fund Balance with Treasury      $   223,738,732       $      223,739,000   $        190,790,334         $     190,790,000
              Loans receivable                     38,119,879               27,594,000             45,247,578                30,428,000
              Investments, amortized cost           3,636,860                3,637,000              3,922,396                 3,922,000
              Investments, cost method             14,544,770               21,497,000             14,610,771                21,608,000
              Interest and other receivable           491,426                  491,000                296,172                   296,000

      Financial liabilities:
              Awards payable                        22,782,621              22,783,000             42,752,841                42,753,000
              Debt                                  33,180,363              21,658,000             35,731,306                23,772,000




      The following methods and assumptions were used to estimate the fair value of each class of
      financial instrument:

      Fund Balance with Treasury, interest and other receivable and awards payable: The carrying
      amounts, at face value or cost plus accrued interest, approximate fair value because of the short
      maturity of these instruments.

      Loans receivable, debt and investments, amortized cost: The fair value is determined as the present
      value of future contractual cash flows discounted at an interest rate that reflects the risks inherent in
      those cash flows. The discount rates approximate rates currently offered by local lending institutions
      for loans of similar terms to companies with comparable risk. The fair value of nonperforming loans
      is determined as the present value of expected future cash flows discounted at an interest rate that
      reflects the risks inherent in those cash flows. The expected cash flows were estimated based on the
      awardee’s financial condition and the long-term potential of the business in relation to the maturity
      date of the loan. The fair value of certificates of deposit is discounted cash flow at a market rate.

      Investments, cost method: The CDFI Fund records these equity investments under the cost method
      of accounting. The CDFI Fund considers qualitative assessments of the viability of the investee,
      fundamental financial analysis and evaluation of the financial statements of the investee and
      prospects for its future.

(b)   Fair Value Hierarchy

      The CDFI Fund does not record investments or loans at fair value on a recurring basis. However,
      from time-to-time, the CDFI Fund records nonrecurring fair value adjustments to reflect partial
      write-downs that are based on current financial indicators of the awardees. The CDFI Fund uses
      qualitative assessments of the viability of the awardee, evaluation of the financial statements of the
      awardee and prospects for its future. Financial statement disclosures and audit opinions were
      reviewed for the most recent five years for indications of going concern or operational issues.
      Calculations of pro-rata equity, financial performance ratios, total cash and other trend analysis were
      performed to determine fair value.


                                                                                                                                          72
            There were no assets measured at fair value on a nonrecurring basis in 2012 or 2011 that were still
            on the balance sheet at year end.

            Investments with a carrying value of $89,764 were written down to their fair value of $0 resulting in
            an impairment loss of $89,764, which was included in earnings for 2012.

(9)   Cost Method Investments
      Investments accounted for under the cost method consist of non-voting common stock held in for-profit
      CDFI Program awardees and preferred non-voting stock held in two awardees. The aggregate amount of
      these investments is $14,554,770 and $14,610,770 at September 30, 2012 and 2011, respectively. All
      securities were evaluated for impairment. One investment was written off during fiscal year 2012 totaling
      $56,000. Four investments were written off during fiscal year 2011 totaling $777,649.

(10) Equity Method Investments
      Investments accounted for under the equity method consist of a Class B limited partnership interest in
      Sustainable Jobs Fund, LP (12%), an interest in Pacific Community Ventures (9%) and a non-voting
      redeemable transferable interest in BCLF Ventures II, LLC (18%). Equity method investments totaled
      $2,405,372 and $2,615,220 at September 30, 2012 and 2011, respectively.




                                                                                                                  73
(11) Debt
    Debt consists of amounts borrowed from the Department of the Treasury and included the following
    activity for the years ended September 30, 2012 and 2011:


                                                                         2012                  2011
     Beginning balance                                           $    35,731,306     $         41,739,350
     New borrowings                                                     4,158,278               1,805,699
     Repayments                                                        (6,709,221)             (7,813,743)
                       Ending balance                            $    33,180,363     $         35,731,306


    The payments to the Department of the Treasury are due on September 30 of each year of maturity.
    Principal payments on this debt as of September 30, 2012 are as follows:

                                                                 Principal
                                        Fiscal Year              Payments
                                 2013                      $         238,712
                                 2014                                154,110
                                 2015                                      -
                                 2016                                      -
                                 2017                              1,524,396
                                 Later years, through 2037        31,263,145
                                                           $      33,180,363


    During fiscal year 2012, the CDFI Fund borrowed $3,705,275 due to downward subsidy reestimate and
    $453,003 to meet annual interest payments due to the Treasury Department, at interest rates ranging from
    1.85% to 6.48%, depending on maturity dates or risk categories.

    During fiscal year 2011, the CDFI Fund borrowed $1,131,320 due to downward subsidy reestimate and
    $674,379 to meet annual interest payments due to the Treasury Department, at interest rates ranging from
    1.85% to 6.48%, depending on maturity dates or risk categories.

    Interest paid in cash for the years ended September 30, 2012 and 2011 was $1,742,006 and $1,865,870,
    respectively.

    The CDFI Fund has permanent indefinite borrowing authority to fund downward subsidy reestimates and
    annual interest payments to the Treasury Department. These costs do not reduce the CDFI Fund’s net
    position.

(12) Commitments
    (a)     Operating Leases
            The CDFI Fund leases office space in Washington, D.C. under the terms of an implicit operating
            lease between the General Services Administration and Eleven Eighteen Limited Partnership which
            expires in March, 2019. The CDFI Fund also leases equipment under the terms of an operating
            lease. The total operating lease expense was $931,544 and $1,549,704 for the years ended September
            30, 2012 and 2011, respectively.


                                                                                                             74
           Future minimum payments due under these operating leases as of September 30, 2012 were as
           follows:


                                                            Minimum
                                       Fiscal Year       lease payments
                                       2013        $         932,804
                                       2014                  914,218
                                       2015                  912,528
                                       2016                  912,528
                                       2017                  912,528
                                                   $        4,584,606


     (b)   Award and Purchase Commitments
           As of September 30, 2012 and 2011, unfilled award commitments amounted to $151,664,176 and
           $117,154,017, respectively. Award commitments relate to CDFI Program, NACA Program and
           CMF awards which were approved by CDFI Fund management but not disbursed as of the end of the
           year. These award commitments are not considered liabilities at year-end because the awardees have
           not met the conditions required for payment. Award commitments pertaining to the BEA Program of
           $208,091 and $0 as of September 30, 2012 and 2011, respectively, represent reimbursable
           expenditures and are excluded from these amounts since they are reflected as liabilities on the CDFI
           Fund’s balance sheet. Award commitments pertaining to CDFI Program of $22,574,530 and
           $37,752,841 as of September 30, 2012 and 2011, respectively, and CMF award commitments of $0
           and $5,000,000 as of September 30, 2012 and 2011, respectively, are also reflected as liabilities as
           these awardees have met the conditions required for payment.

           Purchase commitments of $15,039,755 and $6,926,752 as of September 30, 2012 and 2011,
           respectively, relate to the unexpired portion of contracts, and purchase orders relating to goods and
           services not yet received.

(13) Unexpended Appropriations
     Unexpended appropriations for the years ended September 30, 2012 and 2011 were as follows:


                                                                                2012                   2011

      Beginning unexpended appropriations                              $       160,937,168    $      178,568,702
        Appropriations received                                                221,000,000           227,000,000
        Appropriations for Subsidy Reestimate                                       899,248             4,386,127
        Appropriations cancelled                                                  (588,350)             (577,630)
        Appropriation rescission                                                          -             (454,000)
        Appropriations expended                                              (169,650,386)         (245,929,283)
        Downward Subsidy Reestimate Adjustment                                  (3,705,275)           (2,056,748)
               Change in unexpended appropriations                               47,955,237         (17,631,534)
      Ending unexpended appropriations                                 $      208,892,405     $      160,937,168




                                                                                                               75
(14) Imputed Financing

     Imputed financing represents specific expenses relating to the CDFI Fund paid for by another Federal
     organization. The components of imputed financing include pension costs for CSRS and FERS retirement
     plans, Health Benefits Program costs, Group Life Insurance Program costs and audit fees. Imputed
     financing expenses for the years ended September 30, 2012 and 2011 were $903,840 and $895,512,
     respectively.

(15) CDFI Program and CMF Grant Expense
     The CDFI Fund had CDFI Program grant expense of $126,682,863 and $151,927,165 as of September 30,
     2012 and 2011, respectively. CMF grant expense was $0 and $80,000,000 as of September 30, 2012 and
     2011, respectively.


(16) Administrative Expenses
     Administrative expenses consist of the following for the years ended September 30, 2012 and 2011:



                                                                                2012               2011

     Personnel compensation and benefits                                $        8,841,839   $      8,490,763
     Bond Guarantee Program expenses                                             2,012,987             83,371
     Travel                                                                        169,547            121,099
     Rent, communications, utilities and miscellaneous charges                   1,172,277          1,804,643
     Contractual services                                                        7,857,260          6,973,441
     Information technology systems maintenance                                     84,691            149,582
     Amortization                                                                  166,586            351,857
     Supplies and printing                                                         213,192            220,742
     Other                                                                          61,754            (11,770)

                          Total                                         $       20,580,133   $     18,183,728




(17) Related Party Transactions
     The CDFI Fund has Interagency agreements with the Treasury Department. As of September 30, 2012 and
     2011 these related party expenses amounted to $3,726,659 and $2,279,678, respectively. As of September
     30, 2012 and 2011 related party receivables were $274,763 and $13,951, respectively.

     Expenses were recorded as follows for fiscal years 2012 and 2011: Interagency Agreements with
     Departmental Offices (DO) for financial management services, conference and events; postage; human
     resources services, for the amount of $1,077,706 and $807,803 for fiscal years 2012 and 2011,
     respectively. An Interagency Agreement with the Working Capital Fund shared IT services from the
     Office of the Chief Information Officer, for the amount of $459,637 and $341,947 for fiscal years 2012
     and 2011, respectively. An Interagency Agreement with the BPD for accounting services, e-Travel and
     Prism for the amount of $953,125 and $789,591 for fiscal years 2012 and 2011, respectively. An
     Interagency Agreement with Alcohol and Tobacco Tax and Trade Bureau for IT services for the amount of
     $1,236,191 and $340,337 for fiscal years 2012 and 2011, respectively.

                                                                                                            76
     Receivables were recorded as follows as of September 30, 2012 and 2011: Interagency receivables with
     DO for IT shared services for $274,763 and $13,951, respectively.

(18) Subsequent Events
     The CDFI Fund has evaluated subsequent events from the date of statements of financial position through
     November 12, 2012, the date at which the financial statements were available to be issued, and determined
     there are no other items to disclose.




 




                                                                                                            77
Appendix A: Glossary of Acronyms

A
AFR – Agency Financial Report
AMIS – Award Management Information System
ARC – Administrative Resource Center
ARRA – American Reinvestment and Recovery Act
of 2009
ATS – Allocation Tracking System

B
BEA – Bank Enterprise Award
BGP – Bond Guarantee Program

C
CCME – Certification, Compliance Monitoring and    CoE – Centers of Excellence
Evaluation                                         COTS – Commercial Off-The-Shelf
CDCI – Community Development Capital Initiative
CDE – Community Development Entity
CDFI – Community Development Financial
Institution
CDFI Fund – Community Development Financial
Institutions Fund
CIIS – Community Investment Impact System
CMF – Capital Magnet Fund

E
ETA – Electronic Transfer Accounts

F
FA – Financial Assistance                          FMFIA – Federal Managers’ Financial Integrity Act
FDIC – Federal Deposit Insurance Corporation
FEC – Financial Education and Counseling Pilot
Program
FFAMIA – Federal Financial Assistance
Management Improvement Act
FFATA – Federal Funding Accountability and
Transparency Act
FFMIA – Federal Financial Management
Improvement Act of 1996

G
GMLoB – Grants Management Line of Business

H
HFFI-FA – Healthy Food Financing Initiative – Financial Assistance Program



                                                                                                       78
I
IDA – Individual Development Accounts
ILR – Institution Level Report
IPERA – Improper Payments Elimination and
Recovery Act
IPIA – Improper Payments Information Act of 2002

N
NACA Program – Native American CDFI
Assistance Program
NMTC – New Markets Tax Credit
NOFA – Notice of Funding Availability

O
OCFO –Office of the Chief Financial Officer        OIG –Office of Inspector General
OFM – Office of Financial Management               OMB –U.S. Office of Management and Budget

P
PAR – Performance and Accountability Report


Q
QALICB – Qualified Active Low-Income Community Business
QEI – Qualified Equity Investment
QLICI – Qualified Low-Income Community Investment

S
SECA - Small and Emerging CDFI Assistance


T
TA – Technical Assistance
TLR – Transaction Level Report




                                                                                               79
